<html>
<title> - [H.A.S.C. No. 115-67] THE NATIONAL DEFENSE STRATEGY AND THE NUCLEAR POSTURE REVIEW</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 

                         [H.A.S.C. No. 115-67]

      THE NATIONAL DEFENSE STRATEGY AND THE NUCLEAR POSTURE REVIEW

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            FEBRUARY 6, 2018


                                     




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
28-970                    WASHINGTON : 2018                 



















                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
BILL SHUSTER, Pennsylvania           MADELEINE Z. BORDALLO, Guam
K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROBERT J. WITTMAN, Virginia          JOHN GARAMENDI, California
DUNCAN HUNTER, California            JACKIE SPEIER, California
MIKE COFFMAN, Colorado               MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
PAUL COOK, California                RUBEN GALLEGO, Arizona
JIM BRIDENSTINE, Oklahoma            SETH MOULTON, Massachusetts
BRAD R. WENSTRUP, Ohio               COLLEEN HANABUSA, Hawaii
BRADLEY BYRNE, Alabama               CAROL SHEA-PORTER, New Hampshire
SAM GRAVES, Missouri                 JACKY ROSEN, Nevada
ELISE M. STEFANIK, New York          A. DONALD McEACHIN, Virginia
MARTHA McSALLY, Arizona              SALUD O. CARBAJAL, California
STEPHEN KNIGHT, California           ANTHONY G. BROWN, Maryland
STEVE RUSSELL, Oklahoma              STEPHANIE N. MURPHY, Florida
SCOTT DesJARLAIS, Tennessee          RO KHANNA, California
RALPH LEE ABRAHAM, Louisiana         TOM O'HALLERAN, Arizona
TRENT KELLY, Mississippi             THOMAS R. SUOZZI, New York
MIKE GALLAGHER, Wisconsin            JIMMY PANETTA, California
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming
JODY B. HICE, Georgia

                      Jen Stewart, Staff Director
                         Tim Morrison, Counsel
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Mattis, Hon. James N., Secretary of Defense......................     4
Selva, Gen Paul J., USAF, Vice Chairman of the Joint Chiefs of 
  Staff..........................................................     9

                                APPENDIX

Prepared Statements:

    Mattis, Hon. James N.........................................    37
    Selva, Gen Paul J............................................    52
    Smith, Hon. Adam.............................................    34
    Thornberry, Hon. William M. ``Mac''..........................    33

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Dr. Abraham..................................................    73
    Mr. Bacon....................................................    74
    Mr. Brooks...................................................    69
    Mr. Conaway..................................................    61
    Mr. DesJarlais...............................................    73
    Mr. Gallagher................................................    74
    Mr. Gallego..................................................    77
    Mrs. Hartzler................................................    66
    Mr. Hice.....................................................    75
    Mr. Hunter...................................................    64
    Mr. Knight...................................................    72
    Mr. Lamborn..................................................    62
    Mr. Larsen...................................................    76
    Mr. Rogers...................................................    58
    Ms. Rosen....................................................    79
    Mr. Scott....................................................    67
    Ms. Speier...................................................    76
    Mr. Turner...................................................    57
    Dr. Wenstrup.................................................    71















      THE NATIONAL DEFENSE STRATEGY AND THE NUCLEAR POSTURE REVIEW

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Tuesday, February 6, 2018.
    The committee met, pursuant to call, at 9:36 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    The committee meets today to hear testimony on the 
administration's National Defense Strategy and Nuclear Posture 
Review, both of which were recently released. We welcome back 
the Secretary of Defense and the Vice Chairman of the Joint 
Chiefs of Staff to discuss these important documents.
    I cannot count the number of times I have heard members of 
this committee talk about the importance of having a defense 
strategy to help guide decisions that we and the executive 
branch have to make. Now we have one. It is a component of the 
broader National Security Strategy released in December, and it 
has within it the Nuclear Posture Review, the first of its kind 
since 2010. A lot has changed since 2010, and both documents 
come at a critical time.
    As the National Security Strategy points out, quote, 
``America's military remains the strongest in the world. 
However, U.S. advantages are shrinking as rival states 
modernize and build up their conventional and nuclear forces,'' 
end quote.
    There will undoubtedly be criticism of both documents. Some 
of it will be based on valid shortcomings; some of it may 
spring from more ideological differences. Debates about the 
particulars are fair and to be expected. But it is also fair, I 
think, to commend the administration for its attempt to bring 
structure and rationality to our wide-ranging national security 
efforts in what is surely a dangerous and volatile world.
    One last point: We must never forget that, with any 
strategy, the heart of our Nation's defense, our most valuable 
asset, remains the people who serve. It is morally wrong to 
send brave men and women out on missions under any strategy for 
which they are not fully trained, equipped, and supported with 
the best that this country can provide. That support should not 
be conditioned on any other issue. And we can never forget that 
there is a real human cost to failing to fully support them. 
Strategy is important, but nothing is more important for 
Congress than for us to do our job to support the men and women 
who protect us fully and unconditionally.
    I yield to the ranking member.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 33.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    And thank you, Secretary Mattis, General Selva. I 
appreciate you both being here. And I very much appreciate the 
fact that, as the chairman said, you have put out the National 
Security Strategy. That is obviously a crucially important step 
in figuring out how we put together our budget and how the 
Department of Defense does its job.
    And I will start by agreeing with the last point that the 
chairman made. I think it is the most important one, and that 
is whatever our strategy is, whatever it is that we tell the 
men and women who serve in our military, this is what we expect 
you to do.
    It is our paramount obligation to make sure that we fund 
that, that we do not have a situation where we give them so 
many tasks but not enough resources to train for them. I think 
we can--that is the definition of a hollow force, when we send 
them into battle unprepared to do what we had told them to do.
    And, unfortunately, due to a lot of the budgetary 
challenges that we have had in the last 6 or 7 years, that has 
been happening far too often, because we have lurched from 
continuing resolution to government shutdown, to continuing 
resolution, to sometimes an appropriations deal.
    It is very difficult for both of you and for your 
predecessors to plan what you are going to do when you do not 
know how much money you are going to have one week to the next. 
I think that is a very significant problem.
    So I appreciate the strategies put together. My biggest 
concern is, does it match the amount of resources that we are 
likely to have to fund it. We are $21 trillion in debt, and 
counting. The deficit last year was close to $700 billion, and 
it is going up, not down.
    So how do we make this fit? How does this work? And then 
when you look at the broader picture, and we just cut taxes by 
what is going to amount to $2 trillion. The immediate short-
term impact of that is that we are going to hit the debt 
ceiling sooner than we had expected to because less revenue is 
coming into the Treasury, so we will have to go ahead and do 
that.
    So in the face of a $21 trillion debt, $700 billion 
deficit, and all of the needs that the chairman outlines--and 
your strategy lays it out, and I think in this committee, 
certainly, we all know the list. It is sort of up on the wall 
over there, minus Iran and the threat from radical Islamist 
extremisms--those are the threats that we face and how do we 
meet them.
    In the face of all of that, we decided to give away $2 
trillion. And I could make an argument that in so doing, this 
Congress made a public policy decision that we were not going 
to fund defense at the levels that this committee thinks they 
should. We decided not to fund it and then, okay, well, there 
is other places we can get the money.
    But the President has said he is not going to reform 
mandatory spending at all. The State of the Union Address 
promised more money than I think I can possibly imagine. And as 
a side note, I think we ought to ban the State of the Union 
Address--and I say that for Democrats and Republicans alike--
because the main thing that it does is it gives the Executive a 
chance to stand up there and promise things that are 
absolutely, utterly, and completely impossible to deliver. And 
then the American public comes to expect it and rightfully gets 
a little bit irritated when magic does not make it happen. And, 
again, that is bipartisan. Every State of the Union Address I 
have seen since I have been here I have walked out of there 
thinking, we do not have that money. What is he talking about? 
So we need to make improvements on that, to be sure.
    And I worry greatly about how this strategy is going to be 
implemented in the face of our debt and our deficits. And if 
interest rates go up--I mean, we have been incredibly lucky 
that we have been able to borrow all this money on the cheap. 
If interest rates go up to 3 percent, you can forget about all 
this stuff.
    And I do not blame that on the defense budget. I understand 
it is a piece of it. It is 17 percent of the budget. But our 
overall budget picture does not add up, and I worry that, 
ultimately, that will wind up costing the men and women who 
serve, costing our ability to give them the training and the 
equipment they need to carry out the missions that we all 
hear--that we need.
    The last thing I would say and what I want to hear is, as I 
said, we have the list: China, Russia, North Korea, Iran, 
violent Islamist extremist groups. How do we confront those 
threats and protect our country? I just want to make a couple 
quick comments on that.
    There is a common thread between all of those threats, and 
that is a threat to representative democracy, freedom, and 
capitalism. All of those groups want to make the world safe, I 
guess, for autocratic dictatorships. Then each one of them has 
a slightly different viewpoint on what that dictatorship should 
look like, but it is a fundamental threat to democracy and 
representative government.
    And I think we need to understand it in that context and 
push back comprehensively to try and create a world that is 
safe for freedom and democracy, because I think that is 
incredibly important in keeping a peaceful and prosperous 
world.
    And lastly, I am interested in hearing from you--we hear a 
lot from the military about what you do not have, about where 
we are not spending enough money, about the threats that we are 
not meeting. If we are going to get to where we need to go, we 
need to hear where can we save money, you know, what part of 
our National Security Strategy could we not spend money on. 
Because if we do not hear places where we can save money, there 
is no way we are going to have enough money to meet all the 
places where we are being told that we need it. We need to hear 
that.
    And I want to say that I think your leadership at DOD 
[Department of Defense] and the leadership that came before 
under Ash Carter has really--and the leadership of the 
chairman, has done a good job at getting at procurement reform, 
getting at, you know, trying to get more out of the money that 
we spend and pulling commercial technology, a bunch of 
different ideas that can enable us to get more for less money.
    But that is never going to be more important than it is 
going forward, given the fiscal situation that we are in and 
given the threat environment that is as described. How do we 
meet that? So we are going to have to be a lot smarter about 
how we spend our money, given the situation that we are in.
    With that, I yield back, and I look forward to your 
testimony.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 34.]
    The Chairman. The committee is pleased to welcome the 
Secretary of Defense, Honorable James Mattis, and the Vice 
Chairman of the Joint Chiefs of Staff, General Paul Selva.
    Gentlemen, thank you for being here. Without objection, 
your full written statements will be made part of the record.
    Mr. Secretary, you are recognized for any comments you 
would like to make.

    STATEMENT OF HON. JAMES N. MATTIS, SECRETARY OF DEFENSE

    Secretary Mattis. Well, thank you, Chairman Thornberry, 
Ranking Member Smith, and distinguished members of the 
committee. I am here at your invitation to testify on two 
subjects: the 2018 National Defense Strategy and the Nuclear 
Posture Review. I am joined by the Vice Chairman of the Joint 
Chief, General Selva.
    Even in the midst of our ongoing counterterrorism 
campaigns, my role is to keep the peace for one more year, one 
more month, one more day, giving Secretary Tillerson and our 
diplomats time to resolve crises through diplomatic channels. 
The Department of Defense does this by providing the Commander 
in Chief with military options that ensure our diplomats 
negotiate from a position of strength.
    Upfront, I need to note, 3 days from now I will visit our 
Nation's first security force assistance brigade in Fort 
Benning, Georgia, as they prepare to deploy to Afghanistan. To 
advance the security of our Nation, these troops are putting 
themselves in harm's way, in effect, signing a blank check 
payable to the American people with their lives. They do so 
despite Congress' abrogation of its constitutional 
responsibility to provide sufficient, stable funding.
    Our military have been operating under debilitating 
continuing resolutions for more than 1,000 days during the past 
decade. These men and women hold the line for America while 
lacking this most fundamental congressional support: a 
predictable budget.
    Congress mandated--rightfully mandated this National 
Defense Strategy, the first one in a decade, and then shut down 
the government the day of its release. Today, we are again 
operating under a disruptive continuing resolution. It is not 
lost on me that as I testify before you this morning, we are 
again on the verge of a government shutdown, or at best, 
another damaging continuing resolution.
    I regret that without sustained predictable appropriations, 
my presence here today wastes your time, because no strategy 
can survive, as you pointed out, Chairman, without the funding 
necessary to resource it. Yet we all know that America can 
afford survival.
    Nations as different as China and Russia have chosen to be 
strategic competitors. They seek to create a world consistent 
with their authoritarian models and pursue veto power over 
other nations' economic, diplomatic, and security decisions. 
Rogue regimes like North Korea and Iran persist in taking 
outlaw actions that undermine and threaten regional and global 
stability. And despite our successes to date against ISIS's 
[Islamic State of Iraq and Syria's] physical caliphate, violent 
extremist organizations continue to sow hatred, incite 
violence, and murder innocents. Across the globe, democracies 
are taking notice.
    We recognize great power competition is once again a 
reality. We will continue to prosecute the campaign against 
terrorism by, with, and through our allies. But in our new 
defense strategy, great power competition--not terrorism--is 
now the primary focus of U.S. national security.
    Our military remains capable, but our competitive edge has 
eroded in every domain of warfare: air, land, sea, cyber, and 
space. Under frequent continuing resolutions and sequesters, 
budget caps, our advantages continue to shrink. The combination 
of rapidly changing technology, the negative impact on military 
readiness resulting from the longest continuous stretch of 
combat in our Nation's history, and insufficient funding have 
created an overstretched and underresourced military.
    During last week's State of the Union Address, President 
Trump said weakness is the surest path to conflict. To those 
who might suggest that we should accept a yearlong continuing 
resolution, it would mean a return to a disastrous 
sequestration level of funding for the military. And in a world 
awash in change and increasing threats, there is no room for 
complacency. History makes clear that no country has a 
preordained right to victory on the battlefield.
    Framed within President Trump's National Security Strategy 
and aligned with the Department of State, our 2018 National 
Defense Strategy provides clear strategic direction for 
America's military. A long-term strategic competition requires 
the seamless integration of multiple elements of national 
power, diplomacy, information, economics, finance, 
intelligence, law enforcement, and military.
    The Department's principal priorities are long-term 
strategic competitions with China and Russia. Given the 
magnitude of the threats they pose to U.S. security and 
prosperity today, Congress must commit to both an increased and 
sustained investment in our capabilities.
    Concurrently, the Department will sustain its efforts to 
deter and counter rogue regimes, such as North Korea and Iran; 
defeat terrorist threats to the United States; and consolidate 
our gains in Iraq and Afghanistan, while moving to a more 
resource-sustainable approach.
    More than any other nation, America can expand the 
competitive space. We can challenge our competitors where we 
possess advantages and they lack strength. To restore a 
competitive military edge, this defense strategy pursues three 
primary lines of effort: to build a more lethal force, to 
strengthen traditional alliances while building new 
partnerships, and reform the Department's business practices 
for performance and affordability.
    Our first line of effort emphasizes that everything we do 
must contribute to the lethality of our military. In war, an 
enemy will attack a perceived weakness. Therefore, we cannot 
adopt a single preclusive form of warfare; rather, we must be 
able to fight across the spectrum of combat. This means the 
size and composition of our force matters. The Nation must 
field a sufficient capable force to deter conflict. If 
deterrence fails, we must win. To defend our way of life, our 
military will embrace change while holding fast to traditional 
proven attributes that make us the most formidable force on any 
battlefield. Those who would threaten America's experiment in 
democracy must know, if you threaten us, it will be your 
longest and worst day.
    To implement this strategy we will invest in key 
capabilities, recognizing we cannot expect success fighting 
tomorrow's conflicts with yesterday's weapons and equipment. 
Driven by this strategy, next week you will see in our fiscal 
year 2019 budget investments the following: space and cyber, 
nuclear deterrent forces, missile defense, advanced autonomous 
systems, artificial intelligence, and professional military 
education to provide our high-quality troops what they need to 
win.
    We will prioritize rebuilding readiness while modernizing 
our existing force. We will also be changing our forces' 
posture to prioritize readiness for warfighting in major 
combat, making us strategically predictable for our allies and 
operationally unpredictable for any adversary.
    Our second line of effort is to strengthen traditional 
alliances while building new partnerships. History is clear 
that nations with allies thrive. We inherited this approach to 
security and prosperity from the greatest generation, and it 
has served the United States well for 70 years. Working by, 
with, and through allies who carry their fair share is a source 
of strength. Since the costly victory in World War II, 
Americans have carried a disproportionate share of the global 
defense burden while others recovered.
    Today, the growing economic strength of allies and partners 
has enabled them to step up, as demonstrated by more than 70 
nations and international organizations participating in the 
Defeat-ISIS campaign, and again in the 40-some nations standing 
shoulder to shoulder in NATO's [North Atlantic Treaty 
Organization's] Resolute Support mission in Afghanistan. Most 
NATO allies are also increasing their defense budgets, giving 
credence to the value of democracies standing together.
    Our third line of effort serves as the foundation for our 
military's competitive edge: Reforming the business practices 
of the Department to provide both solvency and security and 
thereby gaining full benefit from every dollar spent.
    Every day we will earn the trust of Congress and the 
American people. We must be good stewards of the tax dollars 
entrusted to us. In this regard, we will deliver our 
Department's full financial audit this year, because results 
and accountability matter. The first audit in DOD's history 
will reveal how we can be better stewards.
    The Department is transitioning to a culture of performance 
and affordability that operates at the speed of relevance. We 
will prioritize speed of delivery, continuous adaptation, and 
frequent modular upgrades. With your critical support, we will 
shed outdated management and acquisition processes while 
adopting American industry's best practices. If current 
structures inhibit our pursuit of lethality, I expect my 
service secretaries and defense agency heads to consolidate, 
eliminate, and restructure to achieve the mission.
    One of the key elements of the 2018 National Defense 
Strategy is to ensure America's military provides a safe, 
secure, and effective nuclear deterrent. Last January, 
President Trump directed a Nuclear Posture Review to ensure the 
United States nuclear deterrent is modern, robust, flexible, 
resilient, ready, and appropriately tailored to deter 21st 
century threats and reassure allies.
    I recently received a letter from Senators concerned that 
the 2018 Nuclear Posture Review would undermine decades of U.S. 
leadership on efforts to reduce and eventually eliminate the 
existential threat posed by nuclear weapons. To the contrary, 
the 2018 Nuclear Posture Review reaffirms the mutually 
reinforcing role of nuclear deterrence in a complex and dynamic 
security environment, while underscoring continued U.S. 
commitment to nonproliferation, to counter nuclear terrorism, 
and to arms control.
    Specifically, the review reflects the Department of 
Defense's strategic priority to maintain a safe and effective 
nuclear deterrent that will successfully deter nuclear and 
nonnuclear strategic attacks, assure our allies and partners, 
respond effectively should deterrence fail, and hedge against 
future uncertainties and dangers.
    The United States remains committed to its global 
leadership role to reduce the number of nuclear weapons and to 
fulfill existing treaty and arms control obligations, 
leadership that has reduced our nuclear weapons stockpile by 
over 85 percent from its Cold War high. Yet we must recognize 
that deterrence and arms control can only be achieved with a 
credible capability.
    A review of the global nuclear situation is sobering. While 
Russia has reduced only the number of its accountable strategic 
nuclear force, as agreed upon in the New START [Strategic Arms 
Reduction] Treaty, at the same time, Russia has been 
modernizing these weapons as well as other nuclear systems.
    Moscow advocates a theory of nuclear escalation for 
military conflict. China too is modernizing and expanding its 
already considerable nuclear forces pursuing entirely new 
nuclear capabilities. It is also modernizing its conventional 
military to challenge U.S. military superiority. Despite 
universal condemnation in the United Nations, North Korea's 
nuclear provocations threaten regional and global peace, and 
Iran's nuclear ambitions remain an unresolved concern. 
Globally, nuclear terrorism remains a tangible threat.
    As Senator McCain said last week, since the end of the Cold 
War, we have let our nuclear capabilities atrophy under the 
false belief that the era of great power competition was over. 
As the new National Defense Strategy rightfully acknowledges, 
we now face the renewed threat of competition from Russia and 
China, and we cannot ignore their investments in nuclear 
weapons in addition to conventional forces.
    The 2018 Nuclear Posture Review reaffirms the findings of 
previous reviews that the nuclear triad comprised of silo-based 
intercontinental ballistic missiles, bomber aircraft, and 
nuclear submarines is the most strategically sound means of 
ensuring nuclear deterrence. To remain effective, however, we 
must recapitalize our Cold War legacy nuclear deterrent forces, 
continuing a modernization program initiated during the 
previous administration.
    To quote my predecessor, Secretary Carter, quote, ``We have 
been in a nuclear arms race for two decades now, but the U.S. 
has not been running the race,'' unquote.
    And as you can see demonstrated in this chart over here in 
the corner of the room, that gives credence to my predecessor's 
observation. The nuclear delivery system development over the 
last 8 years shows numerous advances by Russia, by China, and 
by North Korea, versus the near absence of such activity by the 
United States, with competitors and adversaries developing 34 
new systems in that time as compared to only 1 for the United 
States, the F-35 aircraft.
    [The chart referred to can be found in the Appendix on page 
47.]
    Secretary Mattis. Nuclear deterrence will continue to play 
a critical role in preventing nuclear attack and large-scale 
conventional warfare between nuclear arms states for the 
foreseeable future. U.S. nuclear weapons assure and defend our 
allies against conventional and nuclear threats, furthering our 
nonproliferation goals and increasing global security.
    The National Defense Strategy and the Nuclear Posture 
Review align with the President's National Security Strategy 
guiding all of our efforts. As I said earlier, no strategy can 
survive without the necessary stable, predictable funding. 
Failure to modernize our military risks leaving us with a force 
that could dominate the last war but be irrelevant to 
tomorrow's security.
    We need Congress to lift the defense spending caps and 
support the budget for our military of $700 billion for this 
fiscal year and $716 billion for next fiscal year. Let me be 
clear: As hard as the last 16 years of war have been on our 
military, no enemy in the field has done as much to harm the 
readiness of the U.S. military than the combined impact of the 
Budget Control Act's defense spending caps, worsened by 
operating for 10 of the last 11 years under continuing 
resolutions of varied and unpredictable duration.
    The Budget Control Act was purposely designed to be so 
injurious that it would force Congress to pass necessary 
budgets. It was never intended to be the solution. For too long 
we have asked our military to carry on stoically with a 
success-at-any-cost attitude. Our troops work tirelessly to 
accomplish every mission with increasingly inadequate and 
misaligned resources simply because Congress has not maintained 
regular order. The fact that our volunteer military has 
performed so well is a credit to their dedication and 
professionalism. We expect the men and women of our military to 
be faithful in their service, even when going in harm's way. We 
must also remain faithful to them.
    Chairman, as you said in January, ``If Congress does not 
come together to find a way to fund this strategy, Secretary 
Mattis must explicitly inform Congress and the American people 
of the consequences of failure.''
    The consequences of not providing a budget are clear. Even 
though we are protecting ongoing operations from continuing 
resolution disruptions, each increment of funding in support of 
our partners in Afghanistan, Iraq, and Syria requires a 15-day 
congressional notification. My commanders in the field write to 
me for help in getting timely and predictable funds for their 
efforts as they work to execute our strategy against the enemy 
in the field.
    Additionally, should we stumble into a yearlong continuing 
resolution, your military will not be able to provide pay for 
our troops by the end of the fiscal year. We will not recruit 
the 15,000 Army soldiers and 4,000 Air Force airmen required to 
fill critical manning shortfalls. We will not maintain our 
ships at sea with the proper balance between operations and 
time in port for maintenance. We will ground aircraft due to a 
lack of maintenance and spare parts. We will deplete the 
ammunition, training, and manpower required to deter war, and 
delay contracts for vital acquisition programs necessary to 
modernize the force.
    Further, I cannot overstate the impact to our troops' 
morale from all this uncertainty.
    Today, as I sit here, we are engaged in prudent planning in 
the Pentagon for another disruptive government shutdown. You 
know that I cannot care more about our country's defense than 
this Congress, for it is Congress alone which has the 
constitutional authority to raise and support armies and to 
provide and maintain a navy.
    We need Congress back in the driver's seat, not in the 
spectator's seat of the Budget Control Act's indiscriminate and 
automatic cuts. I know that in time of a major war, Congress 
will provide our military with all it needs. But money at the 
time of crisis fails to deter war. And you know we would be at 
that point to have nothing--no time to prepare, as it takes 
months and years to produce the munitions, the training, and 
readiness required to fight well.
    To carry out this strategy you rightly directed we develop, 
we need you to pass a budget now. If we are to sustain our 
military's primacy, we need budget predictability. Congress 
must take action now to ensure our military's lethality is 
sufficient to defend our way of life, to preserve the promise 
of prosperity, and to pass on the freedoms we enjoy to the next 
generation. And I ask that you not let disagreements on 
domestic policy continue to hold our Nation's defense hostage.
    General Selva will now discuss the military dimensions of 
the 2018 National Defense Strategy and our Nuclear Posture 
Review. Thank you.
    [The prepared statement of Secretary Mattis can be found in 
the Appendix on page 37.]
    The Chairman. General Selva.

  STATEMENT OF GEN PAUL J. SELVA, USAF, VICE CHAIRMAN OF THE 
                     JOINT CHIEFS OF STAFF

    General Selva. Thank you.
    Mr. Chairman, Ranking Member Smith, and distinguished 
members of the committee, thank you for the opportunity to join 
Secretary Mattis to brief on the National Defense Strategy and 
the Nuclear Posture Review.
    General Dunford and I, along with the Joint Chiefs of 
Staff, fully support the strategies outlined in the National 
Defense Strategy and in the Nuclear Posture Review. Both 
documents are the product of significant consultation and 
collaboration between members of the Joint Staff and the OSD 
[Office of the Secretary of Defense] staff.
    The National Defense Strategy provides detailed defense 
policy guidance for military strategy, planning, and 
operations. Therefore, the chairman's 2016 classified National 
Military Strategy will require an update to maintain complete 
consistency with the National Defense Strategy and the 
President's National Security Strategy released in December.
    Immediately upon release of the National Defense Strategy 
published last month, General Dunford directed the Joint Staff 
to commence a revision of the National Military Strategy, and 
that process is now underway. Other subsequent guidance and 
plans will be revised in turn to support the lines of effort 
outlined in the National Defense Strategy and to operationalize 
the concept of Dynamic Force Employment.
    Additionally, we have begun to review the Joint Staff's 
organization and processes to determine if we need to make 
adjustments to support the chairman's global integrator 
responsibilities and to better position the chairman to support 
the Secretary's decision-making processes.
    Refining the National Military Strategy and the Joint 
Staff's organization and processes are a step towards 
increasing the lethality and flexibility of the joint force in 
light of the reemergence of great power competitions.
    The Nuclear Posture Review also reflects the realities of 
today's security environment, as well as projecting the future 
environment and its potential impacts on U.S. nuclear weapons 
policy and strategy. More specifically, the Nuclear Posture 
Review paid particular attention to Russian, Chinese, and North 
Korean activities intended to develop, modernize, and expand 
their nuclear weapons capabilities and to integrate them into 
their military strategies and doctrine. The Nuclear Posture 
Review takes into account the potential for Iran to renew its 
pursuit of nuclear weapons and capability in the future.
    The review has determined that our strategy must be 
tailored to each of these potential adversaries to effectively 
communicate the cost of aggression, and this tailored strategy 
approach requires that the United States maintain a flexible 
and credible mix of nuclear and conventional capabilities that 
can address a spectrum of adversaries and threats over a 
significant period of time. It should not be lost on this 
committee that the Nuclear Posture Review conducted its 
assessment across a 30-year swath of the future.
    The Nuclear Posture Review reaffirms the Nation's nuclear 
triad as the bedrock of our ability to deter aggression, assure 
our allies, and hedge against an uncertain future. And as the 
Secretary has mentioned, it reaffirms the need to recapitalize 
each component of our legacy nuclear systems to ensure that our 
nuclear capabilities remain ready, secure, capable, and 
credible now and into the future.
    Two supplemental capabilities recommended in the Nuclear 
Posture Review, the nuclear-armed sea-launched cruise missile 
and a modification of a small number of existing submarine-
launched ballistic missile warheads, would enhance deterrence 
by ensuring that no adversary under any set of circumstances 
can perceive an advantage through the use of a limited nuclear 
escalation or other strategic attack.
    Fielding these capabilities will not lower the threshold at 
which the United States would employ nuclear weapons; rather, 
it will raise the nuclear threshold for potential adversaries, 
making the use of nuclear weapons less likely.
    Nuclear weapons pose the only existential military threat 
to our Nation. Therefore, there is no higher priority for the 
joint force than fielding all of the components of an effective 
nuclear deterrent to deter potential adversaries from nuclear 
attack on any scale.
    It is important to note that the National Defense Strategy 
and the Nuclear Posture Review both make the assumption that 
the military will receive timely, predictable, and sufficient 
funding to execute these strategies. As General Mattis has 
emphasized, we in uniform appreciate the support of this 
committee and Congress, and we trust that Congress will provide 
the funding needed to turn these strategies into reality.
    Mr. Chairman, Ranking Member Smith, thank you for your 
time. We look forward to your questions.
    [The prepared statement of General Selva can be found in 
the Appendix on page 52.]
    The Chairman. Thank you.
    Let me just take a moment and give members a heads-up on 
what our schedule looks like today. We are going to have votes 
on the floor at about 11:30. The Secretary and General Selva 
were gracious to move the start time of this hearing up to 9:30 
to try to give us more time to get in questions before the 
votes. But we are still not going to have time to get to 
everybody. So we are going to do the best we can until we have 
votes. We are going to break and go to the floor, and then we 
will reconvene after votes in a closed, classified session so 
that we can get further details about the National Security 
Strategy.
    Now, the Secretary still has to be over in the Senate later 
today, so--but I think that is the best combination of things 
to give us the most useful information in both public and in a 
classified session.
    Mr. Secretary, I was sitting here thinking that I believe 
the statement you just gave is the clearest, most direct, 
bluntest statement I have heard from any administration witness 
about the importance of Congress doing its job in a way that 
Mr. Smith and I both talked about in our opening statements. 
And you were very clear about CRs [continuing resolutions] and 
the damage they do to the military.
    Later today, the House is going to vote on an appropriation 
bill for the Department of Defense for the rest of the fiscal 
year. It is consistent with about $700 billion of total 
spending for our national defense account. And my question to 
you is, is that bill, that level of funding consistent with the 
National Defense Strategy that you have talked about today? And 
if for whatever reason that does not--that level of resources 
does not happen, what does that do to the strategy?
    Secretary Mattis. Chairman, that is sufficient. I would 
tell you, sir, that with it we can restore the competitive 
advantage--or begin down the trail of restoring the competitive 
advantage that has been eroded.
    I would tell you additionally, sir, that without it, we 
will be put into the position where the strategy would have to 
be changed and we would have to accept greater risk, especially 
in terms of deterring adversaries who might think that we are 
weaker because they can register where our readiness is being 
eroded.
    The Chairman. Okay. Let me just ask one other thing in the 
interest of time so we can get to other members. When you 
assumed this office, there was speculation perhaps that you 
were a skeptic on some aspects of our nuclear triad, our 
nuclear deterrence.
    You spent a year looking through it. The Nuclear Posture 
Review is the result of the study that you and the Department 
have put into it. But can you just kind of tell us, what--as 
you have looked at our nuclear deterrence, how has your 
thinking evolved? I mean, I do not know if you want to say if 
you were a skeptic or not at the beginning, but it looks like 
there was a change or at least some evolution. Why?
    Secretary Mattis. I think that is a fair statement, 
Chairman. I was confident that when I received the waiver from 
the House and the Senate to go into this job that you expected 
me to exercise my judgment. I came in wanting to challenge just 
about everything. I wanted it to be proven to me that we needed 
to spend every cent, that every time we had a troop in harm's 
way it was for the well-being of the American people.
    In this case, I looked at the triad piece by piece and the 
elements of each leg of the triad. I was especially attentive 
to the intercontinental ballistic missile force. After talking 
with a lot of people, visiting the missile fields, and doing a 
lot of study, I believe it is a stabilizing element that would 
be a strong deterrent to anyone who decided they wanted to 
employ nuclear weapons against us.
    There was another weapons system that I was concerned could 
be destabilizing, an air-launched cruise missile or a cruise 
missile. You can see over here on the chart that, clearly, 
Russia does not consider that destabilizing. Look at the number 
that they have developed and fielded. And as I put together how 
do we keep us in a position where this is a nuclear deterrent, 
it has got to have those capabilities to be most persuasive.
    [The chart referred to can be found in the Appendix on page 
47.]
    Secretary Mattis. Deterrence is in the eye of the 
adversary. And that was the journey I embarked on. And it was a 
little rough on the staff and those who came in promoting it at 
first, but I think they were compelling by the time we were 
done.
    The Chairman. Thank you.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    I think you are quite correct that we have entered an era 
where great power rivalry is back on the table. Obviously, 
China and Russia have become more active in a variety of 
different ways.
    What disturbs me about the direction of this conversation 
is, I do not believe that great power rivalry equals endless 
arms race, that basically whenever you have a great power 
rivalry all that is involved is military power. You have to 
build as much as you can build, they have to build as much as 
they build, and it goes up and up and up and up and up.
    Would you agree, Mr. Secretary, that there are other 
important elements of dealing with great power rivalry, 
starting, for instance, with the State Department, with 
diplomacy, with the idea that dialogue between our 
adversaries--between us and our adversaries is important?
    Secretary Mattis. Congressman Smith, I would agree 100 
percent. And I would point out we are not developing, for 
example, nuclear torpedoes. Our Nation is quite capable of 
developing new weapons, as you know. And unlike Russia, for 
example, we have chosen not to do that to give opportunity for 
our diplomats to do what you are recommending.
    Mr. Smith. My question is, deterrence is also your 
diplomatic stance. Deterrence is dialogue. And this is what 
concerns me is, yes, we have to be able to deter Russia and 
China from moving forward. But part of the way you deter them, 
particularly in the nuclear arena, is to have a dialogue, to, 
you know, do what, you know, Ronald Reagan did with Gorbachev 
and with others, you know, and not just arms reduction, but at 
least have an open discussion so that you do not miscalculate.
    I mean, a lot of what we are building into here is we are 
assuming that the Russians--gosh, if we do not have low-yield 
nuclear weapons, then the Russians will think that they can get 
away with a low-yield nuclear strike. Part of the way that you 
make sure that they do not think that is you let them know. You 
have a dialogue.
    And I am very concerned right now that we do not have much 
in the way of a dialogue with Russia or China. We did get 
something in the DOD bill that we passed this year that would 
mandate that happening, but we mandate a lot of things that the 
executive branch does not do. So we need to do that.
    But in the larger point, essentially what we are presented 
with and what the chairman has presented us with is we have to 
cut taxes massively, of course. So we have done that. And then 
we have to fund defense.
    So when you go back through those numbers that I mentioned 
on the $21 trillion debt and $700 billion deficit that is 
growing, now we are going to have a massive increase in 
defense, we had the massive tax cut, you are going to gut 
everything else. And let us forget for the moment our 
infrastructure, education, things that are, I think, also 
important to actually having a just and prosperous society. 
Defense is important, without question. But if you gut 
everything else, you create problems.
    And let us just focus on security. If we pass this budget 
that the Republicans want to put before us today, the State 
Department will continue to be destroyed. As we all know, 
career diplomats are leaving, there have been massive cuts in 
their budget, and now we are proposing no budget for the State 
Department. But we will give them a CR, but we are not going to 
pay any attention to that whatsoever.
    And it becomes a self-fulfilling prophesy, okay. How do we 
know we have to build massive weapons to deter Russia and 
China? Well, we are not talking to them, so we have to presume 
the worst. We are going to give up on diplomacy and simply 
focus on having as many weapons as is humanly possible to make 
sure that they are deterred.
    Dialogue is incredibly important to deterrence. And not 
just dialogue with Russia and China. We need allies. Look, if 
we are in a great power rivalry in this world with both Russia 
and China, given our massive debt and China's economic might, 
that is going to be a tough hill to climb.
    I mean, we can build the military--$1 trillion military, 
and it is going to be hard to match all of that. We need 
allies. We need friends. And there are a lot of possibilities: 
India, Vietnam, South Korea, Japan. We still do not even have 
an Ambassador to South Korea, but we are degrading diplomacy at 
an incredibly rapid level. We are also degrading development, 
which I think is an important part of it.
    This is part of how--we talk about, you know, all that 
stuff in the chart over there that China is doing. One of the 
biggest things China is doing is they are spending a ton of 
money all across the world to try to curry favor with countries 
and also build their own economic might.
    Now, they are doing it in an incredibly crass and terrible 
way, because they do not care what the government does. They 
are not going to pull money out of a country because of the 
human rights violation. They do not care. They are doing it. We 
are pulling back again. This budget that is being proposed guts 
development.
    And now let us just talk about the Department of Homeland 
Security, passingly important, I would hope, for our national 
security. It is part of the nondefense discretionary budget. It 
too will be gutted by this approach. We will just leave it in 
the wind in the CR because defense takes priority. We do 
nothing else.
    The Justice Department has played an enormous role in 
stopping terrorist attacks and also, you know, bringing to 
justice those who have committed them. It too gets gutted by 
this budget.
    So I always bristle a little bit when I hear the, you know, 
how can we hold defense hostage to domestic political 
priorities, as if those domestic political priorities were some 
kind of luxury that, you know, we just engage in for fun and 
enjoyment and are not really important.
    All of those things are important. The State Department is 
really important. In fact, I do not think it was you, but I 
think it was your predecessor or someone who said--I think it 
was you--said, if you are going to cut the State Department, 
you better give me five more divisions, okay, because that is 
what I am going to need to defend this country. It was either 
you or General Dunford, I apologize.
    So to sit here and say, you know, we are going to stand up, 
spend all this money on defense because it would just be wrong 
to prioritize other things is patently absurd and insulting. 
Defense is incredibly important. It is not the only thing that 
is important in keeping the peace.
    This is more a speech than a question, but I think it is 
important. You have got to agree, there are other things that 
are important than keeping the peace. And if we do what is 
being proposed today, we say to those other things, eh, they do 
not matter. Department of Homeland Security does not matter, 
Department of Justice does not matter, State Department does 
not matter, none of that matters. Does that not make your job 
vastly more difficult? That was a question.
    Secretary Mattis. Congressman Smith, I take no issue with 
the fact that we need to have regular order across all 
government expenditures. Unfortunately, right now, what we are 
doing is we are creating security vulnerabilities that can no 
longer be denied.
    Again, one look at the chart and you can see where we are 
at. We cannot do new starts, we cannot get into cyber 
protection, the very thing you hold dear, because we do not 
have the ability to do so under continuing resolutions, 9 out 
of the last 10 years.
    I do not think there is anything contradictory in the way 
you and I look at this right now. Secretary Tillerson and I 
have a very close working relationship. Our military operations 
are wrapped firmly inside our foreign policy. And the President 
has directed Secretary Tillerson and I to find ways to engage 
on nonproliferation and arms control.
    Right now, we have constant communication with the Russians 
on what I would call operational matters, counterterrorism, for 
example, North Korea. But some of these are on pretty, pretty 
big issues. But I agree that we need more communication with 
Russia, with China along the level of I would almost call it 
philosophical engagement as well as operational matters.
    And I do not think there is anything at all ill-advised 
about making certain that protecting the country is put 
foremost so the country can do all the other things that you 
were referring to.
    Mr. Smith. I guess, I--foremost is okay. Only, exclusively, 
while ignoring everything else, not okay. And that is what we 
are about to do this afternoon.
    So the only contradictory thing is to completely ignore the 
rest of the budget, massively cut taxes and fund defense, and 
act like you provided for security for the country.
    But other people have got to get in. I made my point. I 
appreciate you answering the question.
    I yield back.
    The Chairman. Just for the record, I hope we get a complete 
budget agreement and we do it this week for all aspects of the 
government. We can do that and we should.
    Mr. Jones.
    Mr. Jones. Thank you, Mr. Chairman.
    I want to talk about the graveyard of empires. I think that 
is what they say about Afghanistan and the history of 
Afghanistan.
    Mr. Secretary, a few headlines from the last 2 weeks: 
``Kabul attacks cloud U.S. Afghan strategy.''
    ``Why are we still shedding our soldiers' blood for 
pedophiles?'' Subtitle: ``The full extent of child sexual 
assault committed by Afghan Security Forces may never be 
known.''
    Another heading: ``The Taliban is gaining strength and 
territory in Afghanistan.''
    Another headline: ``Taliban threatens 70 percent of 
Afghanistan.''
    Last headline: ``Pentagon blocks release of key data on 
Afghan war.'' ``The Pentagon has restricted the release of 
critical information on the progress being made in the war in 
Afghanistan, a move that will limit transparency.''
    In your prepared remarks you very kindly said, we need to 
build the trust of the American people. How can we build the 
trust of the American people after 16 years, over 2,300 
Americans killed, over 20,000 wounded, and we spent $1 
trillion?
    I do not have to add to Mr. Smith's comments, but this 
country is headed for bankruptcy. Mr. Trump campaigned--I have 
30 of his comments and tweets. He was opposed to being in 
Afghanistan. He wanted to pull out. He was very critical of 
those who wanted to stay.
    We are now increasing the number of our troops in 
Afghanistan, and after 16 years, the American people have a 
right to know of the successes. Some of that, I am sure, is 
classified information, which I can understand. But I also know 
that we are not getting the kind of information that we need to 
get to know what successes we are having. And after 16 years, I 
do not think we are having any successes.
    I would love to have a classified hearing. Maybe that will 
happen in a couple hours, and you would be able to tell us of 
some benchmarks that we have made after 16 years.
    A friend of yours is a friend of mine. The former 
Commandant of the Marine Corps, Chuck Krulak. He has been my 
unofficial adviser on Afghanistan for 5 years. Previous 
Secretary of Defenses have gotten questions that he asked me to 
ask during hearings like this one. Not today did I get that 
from him.
    But 3 or 4 months ago when you talked about increasing the 
number of troops in Afghanistan, he sent me a five-paragraph 
email. I am certainly only going to read one sentence and then 
I want to ask you the question. ``No one has ever conquered 
Afghanistan, and many have tried. We will join the list of 
nations that have tried and failed.''
    Mr. Secretary, how can we, with this budget situation we 
have got and an economic collapse in this country, how can we 
continue to go on a policy after 16 years when the Secretary of 
Defense that follows you and the Congressman that follows me or 
Congresswoman, if we are still talking about Afghanistan in the 
future and nothing is changing, I think there has got to be a 
time that you would say to President Trump we have done all we 
can do. Blood and treasure is lost, and we have nothing to show 
that we have gained, except we still have trouble with the 
leaders of Afghanistan having sex with little boys. Give me a 
quick response if you can.
    Secretary Mattis. Congressman, if we were engaged in 
conquering Afghanistan, I would agree 100 percent with what you 
just stated, if that was our sense of empire. In fact, what we 
are doing to earn the trust of the American people is to ensure 
another 9/11 hatched out of there does not happen during our 
watch.
    Further, the strategy we put together--and President Trump 
challenged every assumption. It took months to put it together 
to answer every question he had, and the gravity of protecting 
the American people caused him to change his mind based on what 
the intelligence services told him was the vulnerability we 
would have if we pulled out of there.
    That strategy did permit a more regional approach. It has 
been embraced by nations as diverse as those in NATO and India. 
We have now--we had declined to 39 nations fighting in the NATO 
campaign from 50 years ago. It has gone now to 41. It has 
started growing more allies. They are there because they 
believe in the strategy, which means the Afghan boys continue 
to carry the load for the fighting but now with advisers that 
bring the NATO air support and fire support to bear to help 
them.
    The Taliban and Haqqani, they have not made their pitch to 
the Afghan people in a positive way by murdering innocent 
people. They are not incurring the support of the Afghan 
people, whereas NATO does have that support.
    It has been a long, hard slog, and I recognize that. But I 
would also tell you that any attempt to keep information from 
the American people, it was a NATO decision at that point. It 
was a mistake, I might add, and that information is now 
available. A number of those headlines, obviously, are selected 
by their editors in order to make the story line they have.
    We believe that the regionalized strategy will draw even 
more allies, and it puts the enemy on the path towards 
accepting reconciliation. We are not out to conquer it.
    The Chairman. The time of the gentleman is more than 
expired.
    I would just mention to members, you can ask whatever you 
want to, but if you ask a question for 4 minutes and leave the 
Secretary less than a minute to offer, I am not going to cut 
him off, but we are not going to get very far if that is the 
approach.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you to both of you for your service and for being 
here this morning.
    I wanted to associate myself with the ranking member's 
comments regarding the whole-of-government approach that is so 
critical. I know that, Secretary Mattis, you mentioned too that 
we must negotiate from a position of strength so that our 
military capability should be clear and send that message. But 
at the same time, we know how long it takes to develop high-
ranking officers who can provide our country with the best of 
advice. And we must have that same timeline for the State 
Department and for those individuals that negotiate, whether it 
is in commerce or whatever, whatever realm that it is.
    So I wanted to just go to the issue of lowering the 
threshold in terms of nuclear capability. And there is a 
question whether or not the Nuclear Posture Review is clear on 
what it considers to be lowering the threshold versus some of 
the comments that I think General Selva made that it is 
possible to modernize nuclear capability and at the same time 
lower that threshold as it is perceived by our adversaries.
    Can you speak to that more? Because I think we are all 
concerned about the Russian doctrine of escalating to 
deescalate. Where are we, and how can we make that clear, I 
think, to the American people?
    Secretary Mattis. I think part of it can be addressed 
through the continuity of our nuclear deterrent--and, again, I 
never say ``nuclear''--nuclear deterrent strategy and how we 
manage it and how we talk about it.
    And if you look at the 2010 Nuclear Posture Review in which 
it said we would only use nuclear weapons in extreme 
circumstances, I would refer to 2018 where we say in the most 
extreme circumstances would we use those weapons. You see the 
continuity between two different administrations, two different 
political parties for the President.
    And in regards to the lower-yield weapon, it is to make 
certain that no one thinks that they could use a low-yield 
weapon and put us in a position where we could only respond 
with a high-yield weapon with the supposition that maybe we 
would not.
    And we can say what we know we would, but what matters in 
deterrence is what does the adversary think. And in this 
regard, deterrence is dynamic, and we must recognize that 
today's deterrent must keep pace with the thinking of today's 
adversaries or competitors.
    Mrs. Davis. Could you respond, sir, though, to the belief 
that a nuclear weapon is a nuclear weapon, that no matter what 
that size may be, it would still signal that we are using a 
nuclear weapon and perhaps even changing the rules of the game?
    Secretary Mattis. Yes, I would agree. I do not think there 
is any such thing as a tactical nuclear weapon. Any nuclear 
weapon used any time is a strategic game changer. That said, we 
do not want someone else to miscalculate and think because they 
are going to use a low-yield weapon, that somehow we would 
confront what Dr. Kissinger calls surrender or suicide, that we 
do not want even an inch of daylight to appear in how we look 
at the nuclear deterrent. It is a nuclear deterrent and must be 
considered credible.
    Mrs. Davis. Thank you.
    General Selva as well, I mean, looking at that nuclear 
modernization, the cost, $700 billion, $1.5 trillion, is that 
something that, given the whole scope of what is needed in 
terms of our defense budget, that makes sense today?
    General Selva. My response is yes, it does make sense. It 
makes sense in the context that we are talking across about a 
40-year timespan, the cost of about $700 million to modernize 
the three legs of the triad, to make available to future 
Secretaries of Defense and Commanders in Chief a credible, 
secure, reliable nuclear triad that allows those individuals 20 
or 30 years into the future to be able to tailor strategic 
responses as well as support the possibility of negotiating 
away entire types and classes of weapons.
    That process will have to continue over a long timespan. 
The arsenal and weapons that we have today are ready, secure, 
and credible, but they must be modernized over the span of time 
to keep those options available to our Commanders in Chief.
    Mrs. Davis. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. And, Secretary Mattis, General Selva, thank you 
so much for your service and being here today. I especially 
appreciate what you are doing, as a veteran myself, but 
particularly as a grateful dad. I have had four sons and a 
nephew serve overseas in Iraq, Afghanistan, Egypt, Army, Navy, 
Air Force. And so I am just very, very grateful for your 
service and your leadership. It is so reassuring as a military 
parent.
    Secretary Mattis, your Nuclear Posture Review, NPR, 
recommends that the United States develop two supplemental 
nuclear capabilities: First, a low-yield submarine-launched 
ballistic missile, SLBM; and second, a sea-launched cruise 
missile. Why are these needed for deterrence and assurance?
    And following on that, some are arguing that they lower the 
threshold for the United States to use nuclear weapons. Do you 
believe that the addition of these capabilities to the U.S. 
nuclear arsenal is an increase or decrease to the likelihood of 
a nuclear war? And another angle, why should we need a low-
yield SLBM when we already have a low-yield nuclear gravity 
bomb? Are these capabilities redundant?
    Secretary Mattis. Congressman, I do not believe it lowers 
the threshold at all. What it does, it makes very clear that we 
have a deterrent if the Russians choose to carry out what some 
of their doctrine people have promoted, their political leaders 
have promoted, which would be to employ a low-yield nuclear 
weapon in a conventional fight in order to escalate to 
deescalate; in other words, to escalate to victory and then 
deescalate. We want to make certain they recognize that we can 
respond in kind. We do not have to go with the high-yield 
weapon. Thus, the deterrent effort stays primary. It is not to 
in any way lower the threshold to use nuclear weapons.
    On the sea-launched cruise missile, as you know, we have an 
ongoing issue with Russia's violation of the INF [Intermediate-
Range Nuclear Forces Treaty]. I want to make certain that our 
negotiators have something to negotiate with, that we want 
Russia back into compliance. We do not want to forego the INF, 
but at the same time we have options if Russia continues to go 
down this path.
    So the idea is, once again, to keep our negotiators 
negotiating from a position of strength. I do not believe you 
can go into a negotiation and try to get something for nothing. 
I do not think the Russians would be willing to give up 
something to gain nothing from us in terms of reduction.
    Mr. Wilson. Well, if there is any negotiation, I certainly 
have faith in your capabilities, and we look forward to working 
with you.
    Another issue that is so important and, Mr. Secretary, that 
needs to be restated over and over, you referenced it in your 
opening statement, but is there any stronger indication of 
Congress' resolve, any action with better deterrent value to 
peer competitors than repealing the Budget Control Act 
sequestration and supporting our military with adequate and 
reliable funding?
    Secretary Mattis. No, there is not, Congressman. Congress 
speaks for the American people I would probably say in the most 
stabilizing and sobering message that this democracy will stand 
up for itself.
    Mr. Wilson. And an issue that Chairman Thornberry has been 
leading on is to address our readiness issue. As we are here 
just 2 days from another government shutdown, can you tell, in 
your view, if Congress does not do its part to turn this crisis 
around, can we expect to see further impacts to the military? 
Should we anticipate more accidents, tragic accidents, as we 
saw in the Pacific this year with the Fitzgerald and McCain?
    Secretary Mattis. Congressman, we are doing everything 
possible to avoid any such repeats of those accidents. However, 
there are a number of areas where when time is lost, if you 
have pilots who are not taking in their flying time now, 5 
years from now when they are majors or they are lieutenant 
colonels, they will not have the level of expertise we would 
expect, because they did not get the opportunity that they lost 
during continuing resolutions or during budget shutdowns, 
governmental shutdowns. It impacts us. And so it is not like we 
maintain even the status quo if we go into one of these kind of 
situations yet again. We actually lose ground--and I can go on 
for a number of examples--in all the forces.
    Mr. Wilson. I thank both of you for your service.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Mr. Secretary and General Selva, thank you for your service 
and for your testimony here today. I also want to associate 
myself with the comments of the ranking member when it comes to 
taking a whole-of-government approach to funding our national 
security priorities as well. But I want to turn to another 
aspect of a security challenge that faces our country today.
    Mr. Secretary, it is an accepted fact that our planet's 
climate is changing. You acknowledged this yourself to our 
committee, and you have shown leadership in this regard 
submitting at your confirmation hearing that you will, and I 
quote, ``ensure that the Department continues to be prepared to 
conduct operations today and in the future, and that we are 
prepared to address the effects of a changing climate on our 
threat assessments, resources, and readiness. And I want to 
commend you for those statements.
    However, both the President's National Security Strategy 
and the Department's National Defense Strategy fail to note 
climate change as a threat. I am perplexed by that and 
certainly ask why was that omitted? But as these changes occur, 
how will you ensure the Department is prepared to respond? What 
steps will the Department take to mitigate the challenges of a 
changing land and seascape to ensure America's mission 
resiliency and assurance?
    Secretary Mattis. Congressman, on a military level, every 
base we have has what we call extreme weather plans. We 
acknowledge any kind of environmental impacts from the weather, 
whether it be drainage systems or whatever we need in order to 
keep that base operating, whether it be airfields, seaports, 
marshalling bases for deployment, that sort of thing. This is a 
normal part of what the military does and under any strategy it 
is part and parcel.
    Mr. Langevin. Well, I still find it perplexing that it was 
left out of the National Defense Strategy.
    But, General Selva, let me turn to part of your testimony. 
I might take issue just with one part of it where you say 
nuclear weapons pose the only existential military threat to 
our Nation. I would add cyber weapons as also posing an 
existential and asymmetric threat to our Nation as well.
    In your assessment, both to you and to the Secretary, how 
well-resourced and trained are our forces to deal with the 
threats of cybersecurity?
    General Selva. Congressman, we have established U.S. Cyber 
Command [CYBERCOM] as the bulwark for the military networks 
that we operate on in order to be able to defend the Nation. 
CYBERCOM, in consultation and collaboration with the National 
Security Administration, also provides for some of the 
cybersecurity for critical infrastructure and industries around 
the country.
    My point in saying that nuclear weapons represent the only 
military existential threat is because they would be used 
uniquely for military purposes to threaten us and cause us to 
capitulate or surrender in the face of a military threat. There 
is no question that cyber is an asymmetric capability and this 
Nation has vulnerabilities both in critical infrastructure as 
well as civilian infrastructure, and we will continue to do the 
work of normalizing our ability to defend those and provide the 
kinds of advice we can through the National Security Agency as 
well as Department of Justice and Department of Homeland 
Security to defend those networks.
    Mr. Langevin. Do you feel that our training is meeting 
expectations as to where we need to be at this time to deal 
with our cyber challenges?
    General Selva. Sir, collaboration between both the military 
capabilities to defend our networks and Department of Homeland 
Security, Justice, and NSA [National Security Agency] to defend 
national networks, the training's as good as we can possibly 
make it and we are reacting to the threats that we can see.
    Mr. Langevin. Mr. Secretary, the National Defense Strategy 
states that inter-state strategic competition rather than 
terrorism is now the primary national security concern. It is 
also our eroding--it also notes our eroding competitive 
military advantage should diplomacy and deterrence fail. While 
I agree that we must increase our military edge in the event of 
conflict, today, our competitors are launching political, 
economic, information, and cyber operations targeting us.
    Where do you believe we are with respect to our competitive 
advantage in these types of activities that do not rise to the 
level of armed conflict? To what extent do you feel we should 
be prepared to increase our proficiency in these areas?
    Secretary Mattis. It is a great question, sir, because this 
was what I was alluding to when I mentioned that we have the 
potential to enlarge the competitive space, and it is right 
into the areas you are talking about. We have to remember we 
are a revolutionary act, this country, the kind of democracy 
that we stand for.
    And you can practice all the predatory economics you want. 
You can send your military into Syria to prop up a despot if 
you wish to. But the fact is we have areas of diplomacy, of 
education, that go far beyond what other nations can reach back 
and find strength in, and we can use that to build modern 
partnerships. In other words, not abandon our traditional 
partnerships, NATO for example, but certainly expand to a 
broader array of partners today that do not want to be 
basically made tribute states to someone else's economic or 
political system.
    Mr. Langevin. Thank you both. And I yield back.
    The Chairman. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. Thank you both for 
being here.
    Mr. Secretary, thank you for your strong statements here 
today. I have got two thank yous and a question, then I am 
going to yield the remainder of my time to Mr. Gallagher. The 
chairman said we are in tough time constraints and so not 
everyone is going to be able to answer a question.
    The two thank yous are, one, thank you for your strong 
statements on the budget. I voted against the Budget Control 
Act because I believed that sequestration would be damaging to 
our military and that it would happen. And certainly, everyone 
on this committee has fought ever since it has been implemented 
to try to lift that burden on our military. Your strong words 
are important to let people know the real effects of that.
    It is very sad that in your comments you have a whole 
section on impact of congressional inaction. But I must say 
that the House has not really been inactive. We passed a 
budget, the National Defense Authorization Act. We passed the 
appropriation bills three times. We are going to do it again.
    We really are dealing with a handful of those in the Senate 
who are causing inaction. And I certainly call on Democratic 
leadership in the Senate to dislodge the defense funding for 
the military because of the various reasons that you are giving 
us of the damage that is occurring by connecting defense 
funding to other items.
    Secondly, I want to thank you for your strong words in the 
Nuclear Posture Review. We know we are coming off the 2010 
Obama Nuclear Posture Review that actually assigned DOD the 
responsibility of reducing the role of U.S. nuclear weapons in 
U.S. National Security Strategy, while at the same time giving 
them the responsibility to modernize. It is very hard to reduce 
at the same time you are to modernize.
    Your chart is important because it certainly over here on 
the right shows that those who say that we need to reduce our 
nuclear weapons or slow our modernization because others will 
follow is folly. Our reducing our nuclear weapons does not 
result in anyone else doing so. It certainly is not based on 
reality or history.
    One correction, on the bottom right on your chart, you say 
air-launched and the F-35. As you know, we are not--that is on 
paper currently. That is not an accomplished capability. I look 
forward to working with you on that.
    Then to my question, you indicated that the INF Treaty was 
continuing to be violated by Russia and we are continuing a 
dialogue. We also know that, you know, they violated the 
territorial integrity of a treaty with the Ukraine. They have 
violated the Open Skies Treaty, violated the Treaty on 
Conventional Forces in Europe. How do we approach their 
violation in the INF in dialogue when they show no indication 
that treaties even matter to them?
    Secretary Mattis. Well, sir, I have had extensive 
discussions with our NATO allies and the Secretary General at 
NATO on this issue. I have made clear that our approach is that 
we do not want to withdraw from INF, but we are going to have 
to see effort by Russia to get back in line with it. And State 
Department is engaged on this with the Russians as we speak 
right now. And also, we are going to stay inside the INF-
compliant requirements, but we are going to do research and 
development of an alternative weapon that should put Russia in 
a position to see the value to returning to be an INF-
compliant.
    Mr. Turner. I yield to Mr. Gallagher.
    Mr. Gallagher. Thank you, Chairman Thornberry.
    Thank you, Mr. Secretary, for your tough words today and 
for your hard work on the National Defense Strategy, 
particularly its focus on great power competition.
    As we try to operationalize that new focus, I am 
particularly interested in some of the second-order 
consequences where we might need to shift our thinking in order 
to stay ahead of our competitors. And you recently endorsed the 
Foreign Investment Risk Review Modernization Act, and you have 
talked about China's pursuit of veto authority over other 
nations' economic decisions. Why, in your view, is this 
legislation and a hard look at CFIUS [Committee on Foreign 
Investment in the United States] needed?
    Secretary Mattis. Sir, we have made very keen observations 
of the amount of intellectual property that has been basically 
under industrial espionage, has been rifled through in our 
country and exfiltrated. And it is time that we also look at 
what are the most critical national security industries that 
may not be covered under the current act that we need to 
broaden and deepen the protections for this advantage that we 
have available, whether it be Silicon Valley, Seattle, or 
elsewhere in the country.
    Mr. Gallagher. And then can I quickly ask, General Selva, 
what concerns do you have, from a military advice perspective, 
on our ability to protect DOD's supply chain, critical 
technology, and our industrial base, given current tools, 
practices, and authorities?
    General Selva. Thank you, Congressman. The supply chain and 
the industrial base speak directly to the timeliness of CFIUS 
actions and our ability to control who invests in those key 
capabilities that allow us to supply, train, and deploy our 
military forces. So the notion that we would not pay attention 
to who is investing in the companies that actually allow us to 
move and mobilize our force is folly. So the refinement and 
renewal of the powers within the CFIUS capabilities to 
determine who is doing that investing and for what reason put 
us in a position of being able to understand the potential 
vulnerabilities of those investments.
    Mr. Gallagher. Thank you both. My time has expired.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Secretary, I could not help but notice in the response 
to a question earlier, you said that--I think I heard you say 
that we need SLCM [submarine-launched cruise missile] and the 
SLBM [submarine-launched ballistic missile] in order to have 
democracy stand up for itself. I think that is what your 
response was to a question.
    You are not suggesting that if any one of us do not support 
the development of SLCM or SLBM that we are not standing up for 
our democracy?
    Secretary Mattis. That would never be the way I 
characterize someone's vote, sir.
    Mr. Larsen. Thank you.
    So you also argued that the Nuclear Posture Review 
provides, I think it was SLCM provides a bargaining chip in 
dealing with INF Treaty violations of the Russians. Did I get 
that correct?
    Secretary Mattis. That is correct, Congressman.
    Mr. Larsen. Is it a logical extension, then, that if we saw 
a change in Russian behavior, the administration would stop the 
development of either one or both?
    Secretary Mattis. I do not want to say in advance of a 
negotiation and undercut our negotiator's position what we 
would or would not do. The point I would make is that 
deterrence is dynamic. We have to deal with it as it stands 
today, as we see it on the chart. And in that regard, I believe 
that we have to give our negotiators something with which to 
negotiate.
    Mr. Larsen. Do you have any indication there would be a 
change in Russian behavior with the development of either one 
of these?
    Secretary Mattis. I can only tell you that we go into this 
with capabilities to make certain the Russians understand that 
we have a capability and a deterring capability, and it is 
based on not just the two nations, but the broader deterrent 
portfolio as well.
    Mr. Larsen. Sure. Does the United States currently have the 
ability to deliver a nonstrategic nuclear weapon, a nuclear 
response without this investment? Do they have the ability? I 
am sorry, do they have the ability to deliver that without this 
investment?
    Secretary Mattis. Are you referring to a sea-launched 
cruise missile?
    Mr. Larsen. No, I am talking about the delivery of a 
nonstrategic nuclear response. It would not have to be a sea-
launched.
    Secretary Mattis. I would be cautious about saying any 
nuclear weapon is nonstrategic, sir. If you mean a low-yield, 
yes, we do.
    Mr. Larsen. And what is the difference between that 
capability and, say, a sea-launched?
    Secretary Mattis. The gravity bomb that is the low-yield 
means the bomber would have to penetrate, but today, air 
defense systems are altogether different than 10 or 20 years 
ago.
    Mr. Larsen. And is there any investment going on in 
counter-air defense to deal with that or is this the only--is 
the development of a new capability the only solution?
    Secretary Mattis. No, sir. We are certainly working on air 
defense penetration capability; but, again, we have to deal 
with where we are at today. We are working on the issue.
    Mr. Larsen. Yes. Kind of the where we are at question gets 
to something I am not going to bore you with the details, 
because we will probably get to it in subcommittee hearings, 
but the CBO [Congressional Budget Office] estimate of now $1.2 
trillion over 30 years, which I think the Department would 
say--for the nuclear modernization, which the Department would 
say is only or merely 6.4 percent of the budget when it was 
much higher in the past. I do not know if that means the rest 
of the defense budget is out of control and this one is under 
control, or the fact that we do not really have an accounting 
of what that $1.2 trillion is and that we are now looking at an 
NPR that presumes additional development of capabilities, which 
I presume would be on top of this current CBO estimate.
    You can maybe address that briefly, but we are going to 
have plenty of time over the next couple of months to explore 
that, the money question, which is a big concern of all of 
ours.
    Can you tell us about the assurance? Since nuclear 
deterrence is partly an assurance of allies, can you tell us 
about the assurance a new low-yield nuclear weapon gives to our 
allies or any response from specifically our NATO allies at 
this point?
    Secretary Mattis. Sir, we engaged in extensive consultation 
with our NATO allies. I was on the phone this morning with one 
of my counterparts, and she expressed the deep appreciation of 
her country for the amount of collaboration that went into the 
Nuclear Posture Review. And so, right now, I can tell you the 
deterrence posture we have and we have outlined in the posture 
review has gained a great deal of support from our allies.
    Mr. Larsen. Well, I get thanks for collaboration all the 
time and people then work against me. So I am just wondering 
has NATO then yet taken a position? And I will follow up with 
you later on that. Thanks a lot.
    The Chairman. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    And thank you all for your attendance and your service to 
the country.
    The last Nuclear Posture Review published 8 years ago said, 
quote: ``Russia is not an enemy and is increasingly a 
partner,'' close quote. At that time, there were many of us on 
this committee that did not believe that statement, and we 
certainly do not today.
    Russia continues to brazenly violate the INF Treaty, 
continues to conduct dangerous nuclear exercises directed 
against the United States, NATO allies, and regional partners, 
and continues a military occupation of sovereign Ukrainian 
territory. Finally, China clearly demands recognition as a 
regional gatekeeper and a global influence.
    With that backdrop, Secretary Mattis, how would you 
characterize the changes we have seen in the global security 
environment since the 2010 NPR, and why do these changes 
matter, and how is your NPR recommending we adapt our nuclear 
posture and policies?
    Secretary Mattis. Yes, sir. I believe what we have seen is 
that Russia and China, from, as you point out, Ukraine to 
mucking around in our elections in the case of the Democratic 
elections in the case of Russia, to China's militarization of 
features in the South China Sea, we have seen them choose to 
become strategic competitors with us vice what at one time we 
had hoped would be some level of partnership.
    Mr. Rogers. Do you believe that the 6 or 7 percent of our 
defense budget that we are devoting to the nuclear enterprise 
is an adequate level of spending to fund our Nation's number 
one priority defense mission?
    Secretary Mattis. I do believe it is. And I would point out 
that it is around 3.5 percent for many years, climbing to 6.5, 
6.7 at its top percentage about 2029, we believe. And at that 
point, it would go into a more measured maintenance of what we 
have built: the Columbia class, the B-21, this sort of thing, 
Congressman.
    Mr. Rogers. Okay. Thank you.
    With that, I yield back.
    The Chairman. Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    Mr. Secretary and General Selva, thank you for your 
testimony.
    Mr. Secretary, in the National Defense Strategy, you noted 
that we are a resilient joint force in regards to our forward-
deployed forces. I am concerned regarding the U.S. Navy's 
ability to remain resilient during conflict with a peer 
adversary, specifically with depot-level ship repair capability 
in the Pacific.
    Now, in the Fleet Comprehensive Review, the Navy identified 
capacity issues at the ship repair facility in Yokosuka, Japan. 
The fiscal year 2018 NDAA, section 1047, requires the Secretary 
of the Navy to submit a report on the ship depot maintenance 
capability in the Western Pacific. It further requires the 
Secretary of Defense to certify to congressional defense 
committees whether or not the current ship depot maintenance 
capability and capacity, including dry docks, in the Western 
Pacific are sufficient to meet both peacetime and contingency 
requirements.
    So my question is, where is the Department in terms of 
meeting these requirements, and how are you going about 
determining if there is sufficient capability and capacity?
    Secretary Mattis. Congresswoman, where we are at right now 
is we are examining the sufficiency of it in terms of just raw 
capacity, the anticipated need if we go into conflict, and the 
distribution over a number of locations, for obvious reasons. 
So right now, we are still in the assessment. We obviously know 
what we have right now, but whether it is sufficient for the 
future is where we are concentrating the study. And I will make 
certain that the Secretary of the Navy follows up on this as we 
get more mature in our output.
    Ms. Bordallo. Thank you. Thank you, Mr. Secretary.
    The next question I have is that the people of Guam are 
proud to host the continued bomber presence and one leg of the 
nuclear triad with the recent addition of the B-2 and B-52 
bombers. Considering the bomber presence and as the westernmost 
territory of the United States, Guam holds vital strategic 
bases, and I am happy to see the Department place a THAAD 
[Terminal High Altitude Area Defense] system to aid in its 
defense. However, in your strategy, you call for investment on 
layered missile defense from North Korean threats.
    Considering our strategic importance, is Guam adequately 
defended from theater missile threats, and how do you intend to 
bolster these defense systems in the future?
    Secretary Mattis. Well, we will continue bolstering them to 
keep pace with the threat out of North Korea. As you know, 
besides the THAAD system, ma'am, we also keep the Aegis, the 
ballistic missile defense U.S. Navy warship in the waters out 
there, and we can always reinforce that. We also have several 
of those ships in Japanese waters right now, and they can move 
back and forth to include coverage of Guam in the mobile way 
that comes to our Navy. But we are looking at all the systems, 
to include Aegis Ashore, as we look toward the future 
protection of our Pacific area.
    Ms. Bordallo. Well, thank you, Mr. Secretary. I think we 
have talked about this. Just keep Guam in a secure position and 
keep all the bombers and everything else you have there for a 
while, anyway. And I thank you again.
    And I yield back, Mr. Chairman.
    The Chairman. Votes have come early. We do not have time to 
get two more members in. So as soon as votes are completed on 
the floor, we will come back and be in classified session up in 
2212.
    At this point, the open hearing is adjourned.
    [Whereupon, at 11:04 a.m., the committee proceeded in 
closed session.]



      
=======================================================================




                            A P P E N D I X

                            February 6, 2018

=======================================================================



              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            February 6, 2018

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
 
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            February 6, 2018

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. In April 2017, the State Department released its most 
recent arms control compliance report. It found that Russia remains in 
violation of the Intermediate-range Nuclear Forces (INF) Treaty. a. 
Secretary Mattis, what is your assessment of the impacts from Russia's 
violation of this treaty--both on the U.S. and our allies? b. How does 
the NPR and the Administration's December 2016 Russia strategy propose 
to address this violation? c. How long should the U.S. continue to 
remain in the INF Treaty if Russia continues to violate it?
    Secretary Mattis. Russia's violation of the Intermediate-range 
Nuclear Forces (INF) Treaty is a concrete threat to U.S. forces and to 
allies and partners in Europe and Asia. The value of the INF Treaty, or 
any arms control treaty, depends on all parties remaining in 
compliance. Moscow must understand that the United States will not 
indefinitely endure Russia's non-compliance. The status quo, in which 
the United States continues to comply while Russia continues 
deployments in violation of the Treaty, is untenable. Therefore, the 
United States is pursuing an integrated strategy supported by 
diplomatic, economic, and military research and development actions to 
persuade Russia to return to full and verifiable compliance. This 
includes a review of U.S. options for conventional, ground-launched, 
intermediate-range missile systems, which would enable the United 
States to defend itself and its allies and partners should Russia fail 
to return to compliance. The supplemental sea-launched cruise missile 
capability identified in the 2018 Nuclear Posture Review is also, in 
part, designed to persuade Russia to return to compliance.
    Mr. Turner. Secretary Mattis, should we be considering extending 
the New START Treaty while Russia is violating the INF Treaty, 
violating the Open Skies Treaty, violating the Treaty on Conventional 
Forces in Europe, and failing to comply with the Biological Weapons 
Convention, the Chemical Weapons Convention, and many other arms 
control commitments? a. Do you believe we should pursue further nuclear 
arms control measures with Russia while Russia is in violation of so 
many existing arms control agreements?
    Secretary Mattis. The United States remains willing to engage in a 
prudent arms control agenda. We are prepared to consider arms control 
opportunities that return parties to predictability and transparency, 
and remain receptive to future arms control negotiations if conditions 
permit and the potential outcome improves the security of the United 
States and its allies and partners. The United States will continue to 
implement fully the New START Treaty, which complements U.S. nuclear 
deterrence strategy by contributing to a transparent and predictable 
strategic balance between the United States and Russia. We will 
consider next steps related to the New START Treaty at the appropriate 
time, taking into account Russia's compliance with its obligations 
under the New START Treaty and other arms control agreements.
    Russia's violation of the Intermediate-range Nuclear Forces (INF) 
Treaty is a concrete threat to U.S. forces and to allies and partners 
in Europe and Asia. The value of the INF Treaty, or any arms control 
treaty, depends on all parties remaining in compliance. Moscow must 
understand that the United States will not indefinitely endure Russia's 
non-compliance. The status quo, in which the United States continues to 
comply while Russia continues deployments in violation of the Treaty, 
is untenable. Therefore, the United States is pursuing an integrated 
strategy supported by diplomatic, economic, and military research and 
development actions to persuade Russia to return to full and verifiable 
compliance. This includes a review of U.S. options for conventional, 
ground-launched, intermediate-range missile systems, which would enable 
the United States to defend ourselves and our allies and partners 
should Russia fail to return to compliance. The supplemental sea-
launched cruise missile capability identified in the 2018 Nuclear 
Posture Review is also, in part, designed to persuade Russia to return 
to compliance.
    Mr. Turner. In April 2017, the State Department released its most 
recent arms control compliance report. It found that Russia remains in 
violation of the Intermediate-range Nuclear Forces (INF) Treaty. 
General Selva, you told us last year in March that Russia had now 
operationally deployed the cruise missile that is violating this 
treaty. Tell us--is Russia taking any steps that indicate it will come 
back into compliance with this treaty? Have they stopped deploying 
these missiles or are they deploying more of them?
    General Selva.  [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ROGERS
    Mr. Rogers. Secretary Mattis, you are now the third consecutive 
Secretary of Defense that has identified nuclear deterrence as the 
highest-priority mission of the Department of Defense. Two different 
Administrations, three different Secretaries. Do you believe 6 or 7 
percent of our defense budget is an appropriate level of spending for 
the nation's number one priority defense mission? Do you believe this 
is affordable?
    Secretary Mattis. Yes. Maintaining an effective nuclear deterrent 
is much less expensive than fighting a war that we are unable to deter. 
We can afford this level of investment against one of the few 
existential threats that we face.
    Mr. Rogers. General Selva, we've now had three consecutive 
Secretaries of Defense identify nuclear deterrence as the highest-
priority mission of the Department of Defense. Two different 
Administrations, three different Secretaries. Do the Joint Chiefs of 
Staff agree with this prioritization? Do the Joint Chiefs believe 6 or 
7 percent of our defense budget is an appropriate level of spending for 
the nation's number one priority defense mission? Do you believe this 
is affordable?
    General Selva.  Yes, the Joint Chiefs agree the nuclear mission is 
the highest priority mission of the Department of Defense. The Joint 
Chiefs also support the nuclear force modernization program. I agree 
with what Secretary Mattis said, ``America can afford survival.''
    Mr. Rogers. Secretary Mattis, how do the supplemental capabilities 
proposed by the NPR--a low-yield submarine-launched weapon and a sea-
launched cruise missile--help shore up deterrence and assurance in this 
new era of great power competition?
    Secretary Mattis. The low-yield ballistic missile and sea-launched 
cruise missile are necessary to address our concerns that potential 
adversaries may believe they can effectively threaten or employ limited 
nuclear strikes. These supplemental capabilities, along with the 
existing elements of our Triad, provide a diverse set of nuclear 
capabilities that will provide flexibility to tailor the U.S. approach 
to deterring different potential adversaries.
    Mr. Rogers. Secretary Mattis, do the supplemental capabilities 
proposed by the NPR lower the threshold for nuclear use? Are they about 
nuclear warfighting or about ensuring conflict is avoided all-together? 
Do you believe the addition of these capabilities to the U.S. nuclear 
arsenal increase or decrease the likelihood of a nuclear war?
    Secretary Mattis. By convincing adversaries that even limited use 
of nuclear weapons will be more costly than they can tolerate, we raise 
the threshold for nuclear weapons use and decrease the likelihood of 
nuclear war.
    Mr. Rogers. Secretary Mattis, why do we need a low-yield SLBM when 
we already have a low-yield nuclear gravity bomb? Are these 
capabilities redundant? How do adversary air defenses factor into the 
recommendation for a low-yield SLBM?
    Secretary Mattis. The low-yield submarine-launched ballistic 
missile (SLBM) is highly survivable when deployed in ballistic nuclear 
submarines at sea, while our gravity bombs are more vulnerable in fixed 
storage and operating locations. SLBMs are highly accurate and, given 
their speed and trajectory, are better able to penetrate modern 
defenses that could challenge air-delivered weapons. This does not 
reduce the need for air-delivered gravity bombs and dual-capable 
aircraft, which can be forward deployed, contribute to allied burden 
sharing, provide visible assurance to both allies and partners, and 
serve as a tangible demonstration of U.S. extended deterrence 
guarantees.
    Mr. Rogers. General Selva, in your professional military judgment, 
why do we need a low-yield SLBM when we already have a low-yield 
nuclear gravity bomb? Are these capabilities redundant? How do 
adversary air defenses factor into the recommendation for a low-yield 
SLBM?
    General Selva.  One of the main roles of U.S. nuclear capabilities 
is to deter adversaries. Deterrence is an art, not a science. It is not 
possible to determine precisely what is needed to deter with high 
confidence across a range of potential adversaries and circumstances.
    It is, however, possible to get indications that one's deterrence 
strategy, posture, and capabilities are potentially inadequate, and 
that as a result there is an unacceptable risk of deterrence failure. 
Russian strategy, doctrine, and capabilities call for the limited use 
of nuclear weapons to coerce NATO, and to defeat NATO conventional 
forces through the wider use of nuclear weapons if their coercive use 
fails. They would not have adopted this strategy and doctrine, and they 
would not be expending their limited resources to modernize and expand 
their non-strategic nuclear forces (which are already approximately ten 
times larger than NATO's), if they perceived current U.S. and NATO 
nuclear posture as undeniably sufficient to deter such nuclear use.
    The strategy and capabilities recommended in the NPR are intended 
to reduce Russian confidence in their strategy by providing a wider 
array of credible response options that can render their strategy 
ineffective. Our purpose is to raise Russia's nuclear threshold, not 
reduce our own.
    A low-yield SLBM warhead will provide a near-term, relatively 
inexpensive augmentation of our ability to credibly strike any target 
in response to Russian limited nuclear use. A low-yield SLBM warhead is 
survivable, prompt, and is able to strike targets that are heavily 
defended against air-delivered strikes. All current U.S. low-yield 
options are air delivered. Acquiring this capability will not lower the 
threshold at which the United States would employ nuclear weapons. 
Rather, it is designed to raise the nuclear threshold of potential 
adversaries.
    Possessing multiple low-yield strike capabilities is not redundant. 
These systems will be ``complementary'' capabilities necessary to 
address various potential adversary threat environments (e.g. 
integrated air defenses) in a more credible manner.
    Mr. Rogers. General Selva, in April 2017, the State Department 
released its most recent arms control compliance report. It found that 
Russia remains in violation of the Intermediate-range Nuclear Forces 
(INF) Treaty. General Selva, you told us last year in March that Russia 
had operationally deployed the cruise missile that is violating this 
treaty. Tell us--is Russia taking any steps that indicate it will come 
back into compliance with this treaty? Have they stopped deploying 
these missiles or are they deploying more of them?
    General Selva.  [The information referred to is classified and 
retained in the committee files.]
    Mr. Rogers. Secretary Mattis, what is your assessment of the 
impacts from Russia's violation of the INF Treaty? What impact may this 
violation have on our military, defense posture, and that of our 
allies? How does the NPR and the Administration's December 2016 Russia 
strategy propose to address this violation? How long should the U.S. 
continue to remain in the INF Treaty if Russia continues to violate it?
    Secretary Mattis. Russia's violation of the Intermediate-range 
Nuclear Forces (INF) Treaty is a concrete threat to U.S. forces and to 
allies and partners in Europe and Asia. The status quo, in which the 
United States continues to comply while Russia continues deployments in 
violation of the Treaty, is untenable. Therefore, the United States is 
pursuing an integrated strategy supported by diplomatic and economic 
measures as well as military research and development actions intended 
to persuade Russia to return to full and verifiable compliance. This 
includes a review of U.S. options for conventional, ground-launched, 
intermediate-range missile systems which would enable the United States 
to defend ourselves and our allies and partners should Russia fail to 
return to compliance. The supplemental sea-launched cruise missile 
capability identified in the 2018 Nuclear Posture Review is also, in 
part, designed to persuade Russia to return to compliance.
    Mr. Rogers. Secretary Mattis, should we be considering extending 
the New START Treaty while Russia is violating the INF Treaty, 
violating the Open Skies Treaty, violating the Treaty on Conventional 
Forces in Europe, and failing to comply with the Biological Weapons 
Convention, the Chemical Weapons Convention, and many other arms 
control commitments? Do you believe we should pursue further nuclear 
arms control measures with Russia while Russia is in violation of so 
many existing arms control agreements?
    Secretary Mattis. The United States remains willing to engage in a 
prudent arms control agenda. We are prepared to consider arms control 
opportunities that return parties to predictability and transparency, 
and remain receptive to future arms control negotiations if conditions 
permit and the potential outcome improves the security of the United 
States and its allies and partners. The United States will continue to 
fully implement the New START Treaty, which complements U.S. nuclear 
deterrence strategy by contributing to a transparent and predictable 
strategic balance between the United States and Russia. We will 
consider next steps related to the New START Treaty at the appropriate 
time, taking into account Russia's compliance with its obligations 
under the New START Treaty and other arms control agreements. We will 
also work to bring Russia into compliance with its existing arms 
control obligations, using military tools integrated with diplomatic 
and economic measures as appropriate.
    Mr. Rogers. Secretary Mattis, is the nuclear declaratory policy in 
the 2018 NPR in any significant way different from the Obama 
administration's declaratory policy?
    Secretary Mattis. No. The declaratory policy outlined in the 2018 
Nuclear Posture Review (NPR) is consistent with the declaratory policy 
outlined in the 2010 NPR. The United States would only consider the use 
of nuclear weapons in extreme circumstances to defend the vital 
interests of the United States, its allies and partners. Unlike the 
2010 NPR, the 2018 NPR provides examples of ``extreme circumstances,'' 
which could include significant non-nuclear strategic attacks.
    Mr. Rogers. General Selva, is the nuclear declaratory policy in the 
2018 NPR in any significant way different from the Obama 
administration's declaratory policy?
    General Selva.  It is different only in that it is deliberately 
somewhat less ambiguous regarding what might constitute the ``extreme 
circumstances'' in which we might consider the use of nuclear weapons 
to defend the vital interests of the U.S. and our allies and partners. 
This clarification does not in any way expand those circumstances. It 
clarifies them in order to prevent misperception or miscalculation that 
could result in deterrence failure.
    Mr. Rogers. General Selva, do all of the Joint Chiefs of Staff 
recommend and support the major recommendations of the Nuclear Posture 
Review? Why?
    General Selva.  Yes. Because they recognize that deterrence of 
nuclear attack is the highest priority mission of the Department of 
Defense, and is thus a ``No Fail'' mission. The NPR recommendations are 
a prudent approach to ensuring mission success.
    Mr. Rogers. Secretary Mattis, were our allies consulted as the NPR 
was being considered and drafted? What did they say? How are they 
reacting to the proposal to continue the Obama administration's program 
of record and add two supplemental capabilities?
    Secretary Mattis. Throughout the Nuclear Posture Review, we 
consulted extensively with allies and partners. They were unanimous in 
the view that the security environment has changed for the worse since 
2010; offered a range of opinions on the environment and the continued 
need for nuclear deterrence; and appreciated our efforts to consult 
with them. Our East Asian allies in particular appreciated the 
reaffirmation of U.S. extended deterrence commitments. In Europe, 
reactions were positive, particularly our moves to strengthen 
deterrence, reaffirm our declaratory policy, and further the goals of 
the Treaty on Non-Proliferation of Nuclear Weapons. A number of 
European allies emphasized the importance of balancing deterrence with 
arms control and non-proliferation initiatives. Reactions to 
continuation of the U.S. nuclear modernization program were generally 
positive. No European allies objected to the inclusion of the 
supplemental capabilities. Many viewed these supplemental capabilities 
as an appropriate counter-balance to Russian, Chinese and North Korean 
developments, while some did express reservations over possible Russian 
and Chinese reactions.
    Mr. Rogers. Secretary Mattis, are you satisfied with DOD's 
relationship with the National Nuclear Security Administration (which 
supplies and maintains U.S. nuclear warheads)? What works best in this 
relationship? What would you change? Is the forum for this 
relationship, the Nuclear Weapons Council, functioning as it should? 
How often do you speak to your counterparts in NNSA and the Department 
of Energy?
    Secretary Mattis. The Department of Defense works closely with the 
Department of Energy's National Nuclear Security Administration (NNSA) 
to ensure that the U.S. nuclear stockpile and its supporting 
infrastructure provide the warheads our forces need to reliably deter 
nuclear attack against the United States, our allies and partners. I 
look forward to working closely with Secretary Perry and the new NNSA 
Administrator, Ms. Gordon-Hagerty, on modernizing and recapitalizing 
all aspects of the U.S. nuclear deterrent and U.S. nuclear 
infrastructure to ensure a safe, secure, and effective deterrent that 
protects the homeland, assures allies and above all, deters 
adversaries.
    Mr. Rogers. General Selva, are you satisfied with DOD's 
relationship with the National Nuclear Security Administration (which 
supplies and maintains U.S. nuclear warheads)? What works best in this 
relationship? What would you change? Is the forum for this 
relationship, the Nuclear Weapons Council, functioning as it should? 
How often do you speak to your counterparts in NNSA and the Department 
of Energy?
    General Selva.  Are you satisfied with DOD's relationship with the 
National Nuclear Security Administration (which supplies and maintains 
U.S. nuclear warheads)? Overall, I am satisfied with the relationship 
between the Department of Defense (DOD) and the National Nuclear 
Security Administration (NNSA). That doesn't mean there's no room for 
improvement.
    What works best in this relationship? The Nuclear Weapons Council.
    What would you change? There is an increasing requirement for 
transparency and timeliness of communication between the DOD and NNSA 
through the NWC and its subordinate committees and staff. This needs to 
improve in order to ensure success in the nuclear enterprise 
modernization effort.
    Is the forum for this relationship, the Nuclear Weapons Council, 
functioning as it should? Yes.
    How often do you speak to your counterparts in NNSA and the 
Department of Energy? The NWC meets monthly, and I also meet with my 
DOD and NNSA counterparts as needed in addition to these regularly 
scheduled meetings.
    Mr. Rogers. Secretary Mattis, the Obama administration had a policy 
of not pursuing any new U.S. nuclear capabilities and reducing the role 
of U.S. nuclear weapons in our national security strategy. The 2010 NPR 
claimed this would show leadership and discourage other nations from 
pursing their own new nuclear capabilities. Has this policy influenced 
the behavior of foreign nuclear powers, in particular of Russia? If our 
potential adversaries are not following our lead here, is it dangerous 
for us to continue down this road indefinitely if no other nation--
except perhaps our closest ally in the U.K.--is doing the same? In your 
view, how likely is it that the U.S. nuclear deterrent can remain 
credible to 2050 or beyond if we never modify or improve its nuclear 
capabilities while other countries continue to advance?
    Secretary Mattis. For decades, the United States led the world in 
efforts to reduce the roles and number of nuclear weapons. The 
assumptions and priority goals that guided these efforts, as well as 
the content of the 2001 and 2010 Nuclear Posture Reviews, proved to be 
mistaken. Although the United States has reduced its nuclear arsenal by 
more than eighty-five percent since its Cold War peak, others have 
moved in the opposite direction. Russia, China and North Korea are 
growing their stockpiles, increasing the prominence of nuclear weapons 
in their security strategies, and--in some cases--pursuing the 
development of new nuclear capabilities to threaten peaceful nations. 
In this environment, it is not possible to delay modernization of U.S. 
nuclear forces if we are to preserve a credible nuclear deterrent. This 
is a top priority of the Department of Defense.
    Mr. Rogers. Secretary Mattis, one of the supplemental capabilities 
your NPR proposes is a nuclear-armed sea-launched cruise missile, which 
we had in our arsenal for decades until the Obama administration 
decided to eliminate it in 2010. So is this a ``new'' capability--or is 
it just bringing back an old capability because the world didn't turn 
out to be quite as benign as we may have wished.
    Secretary Mattis. The nuclear armed sea-launched cruise missile is 
not a new capability as the United States deployed such weapons in the 
past.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CONAWAY
    Mr. Conaway. Are you familiar with the Chinese telecommunications 
firms, Huawei and ZTE? As you know, these firms are closely linked to 
China's Communist Party and its intelligence services. Do you believe 
it is appropriate for the Department of Defense to use that equipment 
with its intrinsic risks to department cybersecurity? Do you think 
cleared defense contractors should use it? Please elaborate any 
thoughts or comments you have.
    Secretary Mattis. Yes, the Department is familiar with Huawei and 
ZTE and their linkages to the Government of the People's Republic of 
China. Yes, the Department is concerned with use of any hardware, 
software or service that foreign governments have influence over the 
supply chains. I agree these companies' products present a risk to the 
Department's cybersecurity and their use by cleared defense contractors 
as it pertains to the Department's systems and information.
    Mr. Conaway. Are you familiar with the Chinese telecommunications 
firms, Huawei and ZTE? As you know, these firms are closely linked to 
China's Communist Party and its intelligence services. Do you believe 
it is appropriate for the Department of Defense to use that equipment 
with its intrinsic risks to department cybersecurity? Do you think 
cleared defense contractors should use it? Please elaborate any 
thoughts or comments you have.
    General Selva. Are you familiar with the Chinese telecommunications 
firms, Huawei and ZTE? Answer: Yes. Huawei and ZTE are two of the 
largest Chinese telecommunications equipment providers in the world. 
Historically, both companies have engaged in business practices of 
concern, especially within the context of U.S. National Security. 
Additionally, Chinese security laws may present situations that would 
prioritize Chinese National Security interests over corporate 
interests--a threat that increases the more saturated the 
telecommunications market becomes with both companies.
    Do you believe it is appropriate for the Department of Defense to 
use that equipment with its intrinsic risks to department 
cybersecurity? Answer: While I personally have no formal role in DOD 
procurement actions, I do feel that cybersecurity supply chain risks 
need to have a stronger consideration in acquisition decisions. The 
critical nature our information has on national security and military 
operations demands we use companies that are vetted and screened to 
provide the highest level of security. We must continue to improve 
network security and resilience to ensure adversaries gain neither a 
real or perceived advantage. It remains a priority for the Joint Force 
to protect and defend its critical infrastructure from attacks, as well 
as defend the nation's networks against cyberattacks of significant 
consequence. However, there is no policy that currently restricts the 
use of these products.
    Do you think cleared defense contractors should use it? Answer: DOD 
acquisition decisions to reduce supply chain risks to cybersecurity 
ultimately depend upon cleared defense contractors to be effective, and 
demands we use companies that are vetted and screened to provide the 
highest level of security. Within that context, these cleared defense 
contractors should be very cautious in their acquisition and use of 
certain products, not just in DOD systems, but also in corporate 
networks, systems and devices that could provide a threat actor with 
access to DOD systems and associated critical program information.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. The National Defense Strategy acknowledges space as a 
warfighting domain and rencognizes the need to organize for innovation 
and introduce streamlined approaches to fielding new capabilities.
    But DOD's record on producing space systems is abysmal. One recent 
example is SBIRS, the Space-Based Infrared System that provides us with 
missile warning. It experienced a 221% per unit cost increase with a 9-
year delay.
    <bullet>  What kind of reforms is the Department taking to ensure 
our space warfighting readiness?
    We have observed the long-term strategic competition with China and 
Russia for years, specifically with regard to our space capabilities. 
While we have stagnated in delivering space capabilities to our 
warfighters, China and Russia are dangerously close to outpacing us.
    <bullet>  What kinds of capabilities, policies, and authorities 
does the Department need to ensure that we stay ahead of these 
countries and are able to fight and win through the space domain?
    <bullet>  Clearly our failure to adequately prioritize space 
warfighting is not merely a budgetary issue, but given that we're 
coming off of a 30-year low in R&D investment, more resources would 
certainly be useful, and also would say a lot about our commitment to 
space. When should Congress expect to see space given a higher priority 
in DOD's budget?
    Secretary Mattis. Congress can see the higher priority on space 
security in the President's Budget request, in the new National 
Strategy for Space, in the National Security Strategy, and the National 
Defense Strategy. Aligned with those strategies, the President's Budget 
request includes $12.5 billion for Department of Defense (DOD) space 
programs in Fiscal Year (FY) 2019, which is an increase of 9.4 percent 
over the FY 2018 request. The President's Budget request also includes 
$65.6 billion over the FY 2019-23 Future Years Defense Plan (FYDP), 
which reflects 13.9 percent growth over the previous five-year planning 
period. As Congress has directed, DOD has consolidated this funding 
under Major Force Program-12 to facilitate the DOD leadership's 
strategic management and Congress' oversight of DOD's space funding and 
programs. To compete, deter, and win through space, DOD must continue 
to develop, test, deploy, and sustain the innovative and resilient 
space capabilities our warfighters need to fight and win in all 
domains. To that end, the FY 2019 defense space budget request provides 
for increases in mission assurance of DOD's space-based capabilities 
against growing threats, leverages commercial innovation and our 
international partnerships to accelerate development and deployment of 
new capabilities, strengthens lethality and readiness of the total 
force, and enhances the nation's overall deterrence and warfighting 
power. Furthermore, as Congress directed under Section 1601(c) of the 
National Defense Authorization Act for FY 2018, the Deputy Secretary of 
Defense is assessing the performance of the entire defense space 
enterprise and developing reform recommendations that DOD will be 
providing to Congress by August 2018.
    Mr. Lamborn. The NPR puts considerable focus on three elements of 
our nuclear deterrent that sometimes receive scant attention: (1) the 
nuclear command, control, and communications (NC3) system, which is old 
but reliable and must be modernized; (2) the infrastructure within NNSA 
that is literally falling apart; (3) and the people in uniform and out 
civilian clothes, across DOD and NNSA, that form the backbone of our 
deterrent. Without any of these three, we simply do not have a nuclear 
deterrent in this country.
    <bullet>  How have threats to our nuclear command, control, and 
communications (NC3) system changed over time? What are the nature of 
the threats to our NC3, particularly with regards to cyber attacks, 
attacks on space-based assets, and potential adversary use of limited, 
low-yield nuclear strikes?
    <bullet>  Because it is so large and complex, responsibility for 
the NC3 system is scattered across DOD. What steps does the NPR 
recommend to address this organizational problem?
    <bullet>  What steps are being proposed to get after NNSA's $4 
billion backlog of infrastructure problems and deferred maintenance?
    <bullet>  How will we ensure we take care of the unsung heroes of 
national defense in DOD and NNSA that operate, support, and provide our 
nuclear deterrent?
    Secretary Mattis. The Nuclear Command, Control and Communication 
(NC3) system is subject to challenges from both aging system components 
and new threats, in particular space and cyber-space, adversary 
strategies of limited nuclear escalation, and a diffusion of authority 
and responsibility. The Administration is pursuing a series of steps to 
strengthen NC3, including: 1) improving protection against space-based 
and cyber threats; 2) enhancing integrated tactical warning and attack 
assessment; 3) improving command post and communication links; 4) 
advancing decision support technology; and 5) integrating planning and 
operations. The Nuclear Posture Review (NPR) directs the Chairman of 
the Joint Chiefs of Staff to deliver to me by 1 May a plan to reform 
NC3 governance.
    There is no margin for further delay in recapitalizing the physical 
infrastructure needed to produce strategic materials and components for 
U.S. nuclear weapons. Just as our nuclear forces are an affordable 
priority, so is a resilient and effective nuclear weapons 
infrastructure. The NPR lays out several specific initiatives that 
National Nuclear Security Agency will pursue and fund in its budget 
requests, and implementation of these efforts is ongoing. The personnel 
who maintain our nuclear deterrent are true professionals; I am 
committed to ensuring they have the tools needed to execute their 
mission.
    Mr. Lamborn. The NPR puts considerable focus on three elements of 
our nuclear deterrent that sometimes receive scant attention: (1) the 
nuclear command, control, and communications (NC3) system, which is old 
but reliable and must be modernized; (2) the infrastructure within NNSA 
that is literally falling apart; (3) and the people in uniform and out 
civilian clothes, across DOD and NNSA, that form the backbone of our 
deterrent. Without any of these three, we simply do not have a nuclear 
deterrent in this country.
    <bullet>  How have threats to our nuclear command, control, and 
communications (NC3) system changed over time? What are the nature of 
the threats to our NC3, particularly with regards to cyber attacks, 
attacks on space-based assets, and potential adversary use of limited, 
low-yield nuclear strikes?
    <bullet>  Because it is so large and complex, responsibility for 
the NC3 system is scattered across DOD. What steps does the NPR 
recommend to address this organizational problem?
    <bullet>  What steps are being proposed to get after NNSA's $4 
billion backlog of infrastructure problems and deferred maintenance?
    <bullet>  How will we ensure we take care of the unsung heroes of 
national defense in DOD and NNSA that operate, support, and provide our 
nuclear deterrent?
    General  Selva. Q: How have threats to our nuclear command, 
control, and communications (NC3) system changed over time? What are 
the nature of the threats to our NC3, particularly with regards to 
cyber attacks, attacks on space-based assets, and potential adversary 
use of limited, low-yield nuclear strikes?
    A: The Cold War legacy nuclear command, control, and communications 
(NC3) system, which was last comprehensively updated almost thirty 
years ago, was designed to operate in the face of a singular threat 
from a single adversary. Since then, the NC3 system has grown 
increasingly vulnerable to cross-domain threats from multiple actors. 
Potential adversaries are expending considerable effort in the Space 
and Cyber domains in particular that create new challenges for the NC3 
system. The potential for adversaries to employ limited nuclear options 
further complicates the NC3 system's ability to assure the command and 
control of nuclear weapons at all times.
    Q: Because it is so large and complex, responsibility for the NC3 
system is scattered across DOD. What steps does the NPR recommend to 
address this organizational problem?
    A: To address this challenge, the Nuclear Posture Review report 
directed the Chairman of the Joint Chiefs of Staff in consultation with 
key DOD stakeholders to deliver to the Secretary of Defense no later 
than May 1, 2018, a plan to reform NC3 governance to ensure its 
effective functioning and modernization. We must, and we will improve 
NC3 governance to ensure the Department of Defense (DOD) is properly 
organized to maintain a fully capable NC3 system to address current and 
future environments.
    Q: How have threats to our nuclear command, control, and 
communications (NC3) system changed over time? What are the nature of 
the threats to our NC3, particularly with regards to cyber attacks, 
attacks on space-based assets, and potential adversary use of limited, 
low-yield nuclear strikes?
    A: The Cold War legacy nuclear command, control, and communications 
(NC3) system, which was last comprehensively updated almost thirty 
years ago, was designed to operate in the face of a singular threat 
from a single adversary. Since then, the NC3 system has grown 
increasingly vulnerable to cross-domain threats from multiple actors. 
Potential adversaries are expending considerable effort in the Space 
and Cyber domains in particular that create new challenges for the NC3 
system. The potential for adversaries to employ limited nuclear options 
further complicates the NC3 system's ability to assure the command and 
control of nuclear weapons at all times.
    Q: What steps are being proposed to get after NNSA's $4 billion 
backlog of infrastructure problems and deferred maintenance? How will 
we ensure we take care of the unsung heroes of national defense in DOD 
and NNSA that operate, support, and provide our nuclear deterrent?
    A: The United States will pursue initiatives to ensure the 
necessary capability, capacity, and responsiveness of the nuclear 
weapons infrastructure and the needed skills of the nuclear enterprise 
workforce, including the following:
    <bullet>  Pursue a joint DOD and DOE advanced-technology 
development capability to ensure that efforts are appropriately 
integrated to meet DOD needs.
    <bullet>  Provide the enduring capability and capacity to produce 
plutonium pits at a rate of no fewer than 80 pits per year by 2030. A 
delay in this would result in the need for a higher rate of pit 
production at higher cost.
    <bullet>  Ensure that current plans to reconstitute the U.S. 
capability to produce lithium compounds are sufficient to meet military 
requirements.
    <bullet>  Fully fund the Uranium Processing Facility and ensure 
availability of sufficient low-enriched uranium to meet military 
requirements.
    <bullet>  Ensure the necessary reactor capacity to produce an 
adequate supply of tritium to meet military requirements.
    <bullet>  Ensure continuity in the U.S. capability to develop and 
manufacture secure, trusted strategic radiation-hardened 
microelectronic systems beyond 2025 to support stockpile modernization.
    <bullet>  Rapidly pursue the Stockpile Responsiveness Program 
established by Congress to expand opportunities for young scientists 
and engineers to advance warhead design, development, and production 
skills.
    <bullet>  Develop an NNSA roadmap that sizes production capacity to 
modernization and hedging requirements.
    <bullet>  Retain confidence in nuclear gravity bombs needed to meet 
deterrence needs.
    <bullet>  Maintain and enhance the computational, experimental, and 
testing capabilities needed to annually assess nuclear weapons.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. HUNTER
    Mr. Hunter. Right now we are seeing North Korea pursuing a charm 
offensive with South Korea through its offered participation in the 
Winter Olympics. How long do you anticipate the charm offensive will 
last and do you see it as genuine progress or just a temporary 
distraction? What concern do you have if North Korea continues to 
advance its weapons and delivery programs at the pace it is undertaking 
during this lull? Where does this all end? What should the Congress be 
prepared for if a military conflict occurs?
    Secretary Mattis. Congress can see the higher priority on space 
security in the President's Budget request, in the new National 
Strategy for Space, in the National Security Strategy, and the National 
Defense Strategy. Aligned with those strategies, the President's Budget 
request includes $12.5 billion for Department of Defense (DOD) space 
programs in Fiscal Year (FY) 2019, which is an increase of 9.4 percent 
over the FY 2018 request. The President's Budget request also includes 
$65.6 billion over the FY 2019-23 Future Years Defense Plan (FYDP), 
which reflects 13.9 percent growth over the previous five-year planning 
period. As Congress has directed, DOD has consolidated this funding 
under Major Force Program-12 to facilitate the DOD leadership's 
strategic management and Congress' oversight of DOD's space funding and 
programs. To compete, deter, and win through space, DOD must continue 
to develop, test, deploy, and sustain the innovative and resilient 
space capabilities our warfighters need to fight and win in all 
domains. To that end, the FY 2019 defense space budget request provides 
for increases in mission assurance of DOD's space-based capabilities 
against growing threats, leverages commercial innovation and our 
international partnerships to accelerate development and deployment of 
new capabilities, strengthens lethality and readiness of the total 
force, and enhances the nation's overall deterrence and warfighting 
power. Furthermore, as Congress directed under Section 1601(c) of the 
National Defense Authorization Act for FY 2018, the Deputy Secretary of 
Defense is assessing the performance of the entire defense space 
enterprise and developing reform recommendations that DOD will be 
providing to Congress by August 2018.
    Mr. Hunter. The Nuclear Posture Review (NPR) recommends we retain 
the longstanding ability to forward-deploy dual-capable aircraft, like 
F-15s and eventually F-35s, around the world--not just in Europe. This 
includes Asia. Why is the ability to deploy dual-capable aircraft like 
F-35s to Asia--in support of allies like Japan and South Korea--
important? Do our dual-capable aircraft help reassure our allies in 
Asia?
    Secretary Mattis. Dual capable aircraft should be capable and ready 
to forward deploy to any region, to provide a clear signal to potential 
adversaries that the United States possesses the forward-deployed 
capabilities to respond promptly to potential escalation. Their 
tangible presence also contributes significantly to the assurance of 
allies. Dual capable aircraft make the U.S. nuclear deterrent more 
flexible and enable better tailoring of our strategy to possible 
regional adversaries.
    Mr. Hunter. Right now we are seeing North Korea pursuing a charm 
offensive with South Korea through its offered participation in the 
Winter Olympics. How long do you anticipate the charm offensive will 
last and do you see it as genuine progress or just a temporary 
distraction? What concern do you have if North Korea continues to 
advance its weapons and delivery programs at the pace it is undertaking 
during this lull? Where does this all end? What should the Congress be 
prepared for if a military conflict occurs?
    General Selva.
     <bullet>  It is important to first remember that North Korea has a 
consistent track record of following periods of increased provocations 
with ``charm offensives'' in hopes of extracting favorable concessions 
from negotiations.
    <bullet>  At this point, it is difficult to assess whether North 
Korea's current calls for engagement will offer any different results. 
It is likely, however, that North Korea will not conduct any actions 
that will jeopardize the North-South Summit tentatively targeted for 
April and the potential meeting with President Trump in May.
    <bullet>  It would be a mistake to assume that North Korea will 
cease to advance its weapons and delivery programs during this period. 
We certainly do not operate under this assumption and remain focused on 
supporting the Maximum Pressure Campaign to the fullest extent. We will 
also maintain the readiness of our military forces to conduct a wide 
range of military options.
    <bullet>  Our end state still remains the Complete, Irreversible, 
and Verifiable Denuclearization of the Korean Peninsula.
    <bullet>  Both Secretary Mattis and General Dunford have been clear 
on the potential costs of military conflict on the Korean Peninsula. We 
will prevail but Congress, and the American people, must be prepared 
for a conflict that would result in a loss-of-life unlike any of us 
have experienced in our lifetimes.
    Mr. Hunter. he Nuclear Posture Review (NPR) recommends we retain 
the longstanding ability to forward-deploy dual-capable aircraft, like 
F-15s and eventually F-35s, around the world--not just in Europe. This 
includes Asia. Why is the ability to deploy dual-capable aircraft like 
F-35s to Asia--in support of allies like Japan and South Korea--
important? Do our dual-capable aircraft help reassure our allies in 
Asia?
    General Selva.  The United States retains dual-capable aircraft 
(DCA) to enhance stable regional deterrence and assure our allies. They 
can be deployed globally to signal to both adversaries and allies U.S. 
resolve and capability to respond to aggression and escalation. The NPR 
did not conclude that permanently deploying DCA to Asia at this time is 
necessary for deterrence or assurance purposes. Having the ability to 
forward deploy DCA assures allies that the United States has effective, 
credible, and flexible options to respond to aggression against them.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MRS. HARTZLER
    Mrs. Hartzler. Would you please discuss the requirement for the 
LRSO cruise missile? Some are saying we don't need the LRSO if we 
already have a penetrating bomber, such as the B-2 or B-21, armed with 
nuclear gravity bombs. But the new Nuclear Posture Review states very 
clearly that we need both LRSO and the B-21 bomber.
    a. How do capabilities like LRSO, our bombers, and the nuclear-
armed sea-launched cruise missiles contribute to assurance and 
deterrence in Asia? Do they reassure allies like Japan and South Korea 
while deterring potential adversaries like China and North Korea?
    b. We know how hard it is to defense against cruise missiles. Is 
LRSO a cost-imposing strategy on our adversaries--would it force them 
to spend lots of money if they want to defend against it? Please 
discuss aging and maintenance in our current air-launched cruise 
missiles. What happens to these missiles and this capability if LRSO is 
not fielded on time? What is the risk to a credible nuclear deterrent?
    Secretary Mattis. The Long-Range Stand-Off (LRSO) missile is 
critical to ensure a diverse range of nuclear response options. Along 
with a series of modernization efforts, LRSO will enable the B-52H to 
remain an effective part of the nuclear-capable bomber force. The B-21 
will be able to deliver both gravity bombs and the LRSO, maximizing 
operational flexibility and effectiveness against a wide variety of 
threats around the world.
    Capabilities like the LRSO, bombers, and a modern sea-launched 
cruise missile (SLCM) will provide the capability and capacity to 
disperse forces across a variety of geographical locations and with 
multiple flight profiles. This flexibility complicates adversary 
defense planning, deters potential adversaries, and assures allies and 
partners, particularly in Asia. Although the SLCM is complementary to 
the LRSO, it is not a substitute because LRSO is necessary to sustain 
an effective bomber-leg of the Triad. Further, LRSO will preserve the 
bomber-leg's survivability potential and serve as a hedge against 
unforeseen technical, programmatic, and geopolitical challenges.
    The Air Launched Cruise Missile (ALCM), a system initially fielded 
in the 1980s, is decades beyond its planned lifetime, faces a growing 
threat from advanced air defense systems, and is becoming more 
difficult to effectively sustain as it ages. It will not last much 
beyond the LRSO planned availability. We must replace the aged ALCM 
force in a timely way to maintain the credibility and viability of the 
Triad's bomber-leg.
    Mrs. Hartzler. The force shaping construct will likely drive 
additional requirements for a larger force structure. The Navy and the 
Air Force appear to be acutely impacted by the NDS. What is the 
timeline for the services to align with the NDS and complete the new 
force structure assessments?
    Secretary Mattis. I anticipate the Services will have completed 
their assessments and any required adjustments will be reflected in the 
President's Budget for Fiscal Year 2020.
    Mrs. Hartzler. The NDS makes clear that the size of our force 
matters. Could you discuss what impact the current budget uncertainty 
has on the ability to responsibly and effectively grow the force?
    Secretary Mattis. The budget uncertainty associated with spending 
caps and repeated continuing resolutions certainly had negative impacts 
on the Department, and I welcome the recently enacted spending levels 
that will hopefully afford the Department more budgetary 
predictability. The National Defense Strategy requires modernized force 
structure and the Department needs forces that are lethal, resilient, 
agile, and ready. The Department needs sufficient quantities of those 
capable forces to amass the combat power necessary for major 
contingencies where the force will be contested across all domains.
    Budget predictability is essential to striking the right balance of 
investment in modernization, force structure sustainment, and readiness 
across the FYDP to achieve these effects. In the Fiscal Year (FY) 2019 
President's Budget submission, we intend to grow end-strength 
(manpower) and certain types of platforms (e.g., surface ships), but we 
are not yet growing major combat formations (e.g., whole new brigade 
combat teams or fighter squadrons) given the priority to modernize the 
Joint Force before we grow in that specific way. The Department is 
doing everything it can to ensure the best return on investment with 
the stable budgeting Congress is giving us in FY 2018 and 2019, and we 
need that stability to continue into FY 2020 and beyond.
    Mrs. Hartzler. The end of the Cold War, along with other factors, 
resulted in the early termination of the B-2 program--ultimately only 
21 of the planned 127 were built, ballooning ``per copy'' costs and 
creating a ripple effect of supply chain issues that plague the program 
to this day. The B-2 bomber is the only aircraft in the bomber fleet 
that is able to operate in contested airspace. Today, we have 20 B-2 
bombers--less when you take into account the number that are undergoing 
maintenance versus combat coded. In addition, the B-52s, which are not 
able to operate in contested airspace, are over 50 years old. Can you 
comment on the importance of keeping the B-21 program on time, on 
budget, and at the full number requested? How do continuing resolutions 
effect DOD's ability to do just that and what is the ultimate impact on 
our nuclear assurance and deterrence?
    Secretary Mattis. The Department will continue to maintain a 
strong, credible bomber force, comprised of B-1s, B-2s, and B-52s until 
the B-21s are operational. The B-21 will replace much of the legacy 
bomber fleet and will become the backbone of the U.S. strategic bomber 
fleet and serve as a highly capable, visible, flexible deterrent to our 
adversaries. Therefore, it is essential the program continue to execute 
on time and budget and that we field a minimum of 100 B-21 aircraft.
    Continuing resolutions add considerable budget uncertainty and are 
detrimental to the ability to execute modernization efforts across the 
board, to include programs like B-21 which is integral to nuclear 
assurance and deterrence modernization. Stable and predictable budgets 
are absolutely essential to satisfying B-21 cost and schedule targets.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. Secretary Mattis and General Selva, in light of the 
changes in the National Defense Strategy (NDS) and the emphasis on 
Great Power competition, this Committee received testimony on January 
30, 2018, on ``Readying the U.S. Military for Future Warfare'' which 
pointed to the over-dependency of the force on space, as a critical 
vulnerability.
    Do you believe it is wise to double-down on the vulnerabilities of 
space versus the development of capabilities which can operate in the 
absence of connectivity with space?
    Do you believe system redundancy is a necessity when facing the 
reality of a high-end war with a peer competitor?
    Secretary Mattis. Space is integral to modern, multi-domain 
warfare. Space capabilities compound the lethality of U.S. forces, 
enabling them to shoot, maneuver, and communicate with greater speed, 
precision, accuracy, and clarity. Space provides many advantages that 
cannot be replicated from other domains. As in any warfighting domain, 
it is essential to balance our reliance on space capabilities with 
mission assurance of those capabilities in the face of growing threats. 
The National Defense Strategy places high priority on strengthening 
mission assurance in the space domain by creating more resilient space 
capabilities that are also more easily defended and reconstituted. 
Redundancy is one of many pathways the Department pursues to strengthen 
resilience. Redundancy can be achieved by diversification within the 
space domain and across all domains through networks of U.S., allied, 
partner, and commercial capabilities.
    Mr. Scott. Secretary Mattis, in your National Defense Strategy 
(NDS) document you describe a need to be ``strategically predictable, 
but operationally unpredictable.'' Can you describe for the Committee 
what this means for troop rotations and overseas assignments in terms 
of the new Global Operating Model of ``contact,'' ``blunt,'' ``surge,'' 
and ``homeland forces''?
    Secretary Mattis. Deterrence calls for the Department to 
unfailingly meet the nation's defense commitments and defend the 
nation's interests against any foe. Simultaneously, the Department must 
be more agile and flexible in how we fulfill those commitments to make 
the job of our competitors as difficult as possible.
    The Global Operating Model and Dynamic Force Employment balance 
these demands. The four layers mix persistent forward forces with an 
ability to surge when and where needed. Dynamic Force Employment 
supplies forces in a less predictable way and improves the long-term 
readiness of the Joint Force.
    Mr. Scott. Secretary Mattis, with the shift in the Department's 
focus towards Great Power competition and high-end warfare, can you 
speak to the risk we are incurring and possible capability losses in 
terms of low-intensity conflicts in areas such as AFRICOM and SOUTHCOM? 
Is there a risk in returning to a dominate focus on Great Powers which 
would come at the cost of readiness for low-intensity operations, that 
to date have been a focus for the Department of Defense? I believe the 
homeland would come under significant risk if the Department were to 
shift resources away from these mission areas.
    Secretary Mattis. The National Defense Strategy's (NDS) focus on 
lethality and readiness for high-end warfighting generally requires 
different kinds of capability and force structure than that needed to 
meet the demands of low-intensity operations in the U.S. Africa Command 
and U.S. Southern Command areas of responsibility. The Fiscal Year 2019 
budget sustains funding for general purpose and special operations 
capabilities tailored for these low-intensity demands. The NDS 
prioritizes readiness recovery and more targeted capabilities to 
meeting these kinds of demands (e.g., light attack fighters) going 
forward.
    Mr. Scott. Gentlemen, the rise of ``Mega-cities'' including the 
build-up of urban areas in Asia, Africa, and Europe, increase the 
likelihood of future urban warfare. Do you foresee protracted warfare 
in urban and peri-urban areas as an inevitable conclusion and if so, 
what steps are being taken to prepare the Force?
    Secretary Mattis. Urban combat has been and will remain a 
fundamental aspect of warfare. The Joint Force has gained significant 
experience in urban operations over the last 17 years of war and has 
worked to preserve the hard-won lessons learned. The Joint Force 
continues to hone its expertise and preparedness for urban warfare 
across the spectrum of conflict. In this vein, the Department is 
enhancing close combat lethality and survivability, including in urban 
environments.
    Mr. Scott. Secretary Mattis, during your confirmation hearing you 
stated you would examine the arguments behind whether or not the Long 
Range Stand-Off Missile (LRSO) is destabilizing because it can be armed 
with either a conventional warhead or a nuclear warhead. Well, the 
Nuclear Posture Review (NPR) you released last week fully endorses LRSO 
and calls for its development to continue. It notes that several 
potential adversaries, particularly Russia, have many weapons systems 
that can be nuclear or conventional and that our current air-launched 
cruise missiles have this capability too. So did you conclude that LRSO 
is not, in fact, destabilizing?
    Secretary Mattis. As part of Nuclear Posture Review deliberations, 
we reaffirmed that the inability of a nuclear-armed adversary to 
distinguish between nuclear and conventionally-armed missiles is not 
destabilizing. Cruise missiles and dual-capable aircraft have existed 
for decades and have contributed to strategic stability.
    Mr. Scott. Secretary Mattis and General Selva, in light of the 
changes in the National Defense Strategy (NDS) and the emphasis on 
Great Power competition, this Committee received testimony on January 
30, 2018, on ``Readying the U.S. Military for Future Warfare'' which 
pointed to the over-dependency of the force on space, as a critical 
vulnerability.
    Do you believe it is wise to double-down on the vulnerabilities of 
space versus the development of capabilities which can operate in the 
absence of connectivity with space?
    Do you believe system redundancy is a necessity when facing the 
reality of a high-end war with a peer competitor?
    General Selva.  The Department fully recognizes space as a 
contested domain, with our adversaries seeking to offset any of our 
space-derived advantages. As in other contested domains, we do not see 
the solution as an ``either/or'' problem. Rather, we believe we need to 
improve the survivability of our space systems while also exploring 
terrestrial alternatives that will best add the resiliency needed by 
the Joint Force. System redundancy does have a place in that solution 
set, to include expanded, lower-cost commercial spacelift. The solution 
is more about resilience, and to that end we are investing in 
capabilities (I can describe these at a higher level of classification) 
that cut across defensive operations, reconstitution, and resilience to 
provide space mission assurance.
    Mr. Scott. Gentlemen, the rise of ``mega-cities'' including the 
build-up of urban areas in Asia, Africa, and Europe, increase the 
likelihood of future urban warfare. Do you foresee protracted warfare 
in urban and peri-urban areas as an inevitable conclusion and if so, 
what steps are being taken to prepare the Force?
    General Selva.  Each of the big four (North Korea, Iran, Russia, 
China) contain large urban areas that would present a substantial 
military challenge to U.S. and partner nation forces. While fighting in 
a mega-city (population >10M) would represent a significant challenge, 
the impact of the migration of global populations into urban areas and 
the corresponding increase to the number and size of cities worldwide 
should not be underestimated. It is possible that we will find 
ourselves fighting in urban and peri-urban areas, and we must continue 
to prepare for military operations in urban settings. As an example, 
the Army is presently conducting several studies on dense urban 
environments that will examine current capabilities, required 
capabilities, and make recommendations across the doctrine, 
organization, training, materiel, leadership, personnel, facilities, 
and policy (DOTMLPF-P) domains to address urban operations.
    The Services and USSOCOM train for urban operations from the 
individual level through maneuver unit up to brigade, inclusive of both 
ground forces as well as fixed and rotary wing assets in an Urban Close 
Air Support (CAS) supporting role. The DOD has 66 ranges with urban 
operations training capabilities identified in the most recent range 
report with additional urban warfare training initiatives under 
consideration by a number of the Services. Training in replicated sub-
sections of a megacity, as well as including electromagnetic warfare/
spectrum challenges more effectively into all training, are two 
examples of urban warfare training initiatives being pursued.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BROOKS
    Mr. Brooks. Please describe the changes made to the U.S. nuclear 
deterrent since the Cold War. The NPR states the U.S. has reduced our 
nuclear stockpile by over 85% since the height of the Cold War--how 
have our nuclear forces and capabilities changed?
    a. What classes or types of weapons have we eliminated since the 
Cold War? How have foreign nuclear weapons programs changed?
    b. Is the U.S. in a nuclear arms race with Russia? Please describe 
Russia's nuclear forces modernization program--comparing and 
contrasting it to ours.
    Secretary Mattis. Since the end of the Cold War, the United States 
has made significant reductions in nuclear forces eliminating 
approximately 85% of U.S. inventory at the height of the Cold War 
including capabilities such as short and medium range ballistic 
missiles, nuclear mines, and artillery delivered weapons.
    Foreign nuclear programs have changed at different times for 
different reasons. The United Kingdom and France have retained their 
core nuclear capabilities consisting of submarine-based systems and 
dual capable fighter aircraft. China is modernizing and expanding its 
already considerable nuclear forces with little to no transparency into 
its intentions, and is pursuing entirely new nuclear capabilities 
tailored to achieve particular national security objectives. North 
Korea continues its illicit pursuit of nuclear weapons and missile 
capabilities. The United States is not in an arms race with Russia. 
Russia has expanded and modernized its strategic and non-strategic 
nuclear forces, including the addition of a number of novel systems as 
described by President Putin in March 2018. By comparison, the United 
States is recapitalizing systems at the end of their service life to 
maintain a credible Triad. The Nuclear Posture Review also identified 
two capabilities, a Low Yield Ballistic Missile and a Sea-Launched 
Cruise Missile, to strengthen deterrence against Russia's growing 
arsenal of theater-level nuclear weapons.
    Mr. Brooks. Please describe the changes made to the U.S. nuclear 
deterrent since the Cold War. The NPR states the U.S. has reduced our 
nuclear stockpile by over 85% since the height of the Cold War--how 
have our nuclear forces and capabilities changed?
    a. What classes or types of weapons have we eliminated since the 
Cold War? How have foreign nuclear weapons programs changed?
    b. Is the U.S. in a nuclear arms race with Russia? Please describe 
Russia's nuclear forces modernization program--comparing and 
contrasting it to ours.
    General Selva. In 1991, the United States had deployed 22 nuclear 
weapon types in the stockpile across three military services (see Table 
1). Today the U.S. has seven weapon types in the stockpile, five of 
which are deployed by the Air Force, and two of which are deployed by 
the Navy. The Army and Marine Corps no longer field nuclear weapons.

                                                     Table 1
----------------------------------------------------------------------------------------------------------------
         Warhead/Bomb                  Service                     Type                       Disposition
----------------------------------------------------------------------------------------------------------------
B28                             AF                    Gravity bomb                    Retired
----------------------------------------------------------------------------------------------------------------
W33                             Army                  8-inch AFAP                     Retired
----------------------------------------------------------------------------------------------------------------
B41                             AF                    Gravity bomb                    Retired
----------------------------------------------------------------------------------------------------------------
W48                             Army                  155-mm AFAP                     Retired
----------------------------------------------------------------------------------------------------------------
W50                             Army                  Pershing I                      Retired
----------------------------------------------------------------------------------------------------------------
W56                             AF                    Minuteman II                    Retired
----------------------------------------------------------------------------------------------------------------
B57                             AF, Navy              Depth charge                    Retired
----------------------------------------------------------------------------------------------------------------
B61                             AF                    Gravity bomb                    Active
----------------------------------------------------------------------------------------------------------------
W62                             AF                    Minuteman III                   Retired
----------------------------------------------------------------------------------------------------------------
W68                             Navy                  Poseidon C3                     Retired
----------------------------------------------------------------------------------------------------------------
W69                             AF                    SRAM                            Retired
----------------------------------------------------------------------------------------------------------------
W70                             Army                  Lance SRBM                      Retired
----------------------------------------------------------------------------------------------------------------
W71                             Army                  Spartan ABM                     Retired
----------------------------------------------------------------------------------------------------------------
W76                             Navy                  Trident C4                      Active
----------------------------------------------------------------------------------------------------------------
W78                             AF                    Minuteman III                   Active
----------------------------------------------------------------------------------------------------------------
W79                             Army                  8-inch AFAP                     Retired
----------------------------------------------------------------------------------------------------------------
W80                             AF, Navy              ALCM/TLAM-N                     Active/Retired
----------------------------------------------------------------------------------------------------------------
B83                             AF                    Gravity bomb                    Active
----------------------------------------------------------------------------------------------------------------
W84                             Army                  GLCM                            Retired
----------------------------------------------------------------------------------------------------------------
W85                             Army                  Pershing II                     Retired
----------------------------------------------------------------------------------------------------------------
W87                             AF                    Minuteman III                   Active
----------------------------------------------------------------------------------------------------------------
W88                             Navy                  Trident D5                      Active
----------------------------------------------------------------------------------------------------------------


    We are not in a nuclear arms race with Russia. However, we are 
cognizant of the significant ongoing changes in the nuclear forces of 
three key states of concern: Russia, China, and North Korea.
    Since 2010, Russia has continued to prioritize nuclear forces 
modernization, resulting in increased warhead delivery capacity, and 
improved operational capability. Russia plans to continue this effort. 
In addition to modernizing ``legacy'' Soviet nuclear systems, Russia is 
developing and deploying new nuclear warheads and launchers across 
every leg--land, air, and sea--of its strategic nuclear triad. For 
example, Russia is developing at least three new intercontinental range 
systems, a hypersonic glide vehicle, and new intercontinental, nuclear-
armed, nuclear-powered, undersea autonomous torpedo, and a nuclear-
powered, nuclear-armed cruise missile. None of these systems is 
currently limited by New START. Russia is also modernizing and 
expanding its non-strategic nuclear forces and possesses significant 
advantage in its nuclear weapons production capacity.
    The U.S. nuclear modernization program will also modernize each leg 
of the strategic nuclear triad. However, unlike Russia, the U.S. 
program will not introduce new kinds of intercontinental range nuclear 
systems. The U.S. modernization program also does not seek to 
quantitatively match Russia's growing non-strategic nuclear weapons 
arsenal, as our strategy does not require us to do so. Finally, the 
U.S. program does not build new nuclear warheads. Instead, we life 
extend existing systems.
    China continues to increase the size and capabilities of its 
nuclear forces. For example, China has developed a new road mobile 
strategic ICBM, a new multi-warhead version of a silo- based ICBM, and 
has armed its most advanced ballistic missile submarine with new 
Submarine Launched Ballistic Missiles. It has also deployed a nuclear-
capable precision guided intermediate-range ballistic missile capable 
of attacking land and naval targets. Furthermore, it announced 
development of a new nuclear-capable strategic bomber, which will give 
China a nuclear triad. In 1991, the United States had deployed 22 
nuclear weapon types in the stockpile across three military services 
(see Table 1). Today the U.S. has seven weapon types in the stockpile, 
five of which are deployed by the Air Force, and two of which are 
deployed by the Navy. The Army and Marine Corps no longer field nuclear 
weapons.
    We are not in a nuclear arms race with Russia. However, we are 
cognizant of the significant ongoing changes in the nuclear forces of 
three key states of concern: Russia, China, and North Korea.
    Since 2010, Russia has continued to prioritize nuclear forces 
modernization, resulting in increased warhead delivery capacity, and 
improved operational capability. Russia plans to continue this effort. 
In addition to modernizing ``legacy'' Soviet nuclear systems, Russia is 
developing and deploying new nuclear warheads and launchers across 
every leg--land, air, and sea--of its strategic nuclear triad. For 
example, Russia is developing at least three new intercontinental range 
systems, a hypersonic glide vehicle, and new intercontinental, nuclear-
armed, nuclear-powered, undersea autonomous torpedo, and a nuclear-
powered, nuclear-armed cruise missile. None of these systems is 
currently limited by New START. Russia is also modernizing and 
expanding its non-strategic nuclear forces and possesses significant 
advantage in its nuclear weapons production capacity.
    The U.S. nuclear modernization program will also modernize each leg 
of the strategic nuclear triad. However, unlike Russia, the U.S. 
program will not introduce new kinds of intercontinental range nuclear 
systems. The U.S. modernization program also does not seek to 
quantitatively match Russia's growing non-strategic nuclear weapons 
arsenal, as our strategy does not require us to do so. Finally, the 
U.S. program does not build new nuclear warheads. Instead, we life 
extend existing systems.
    China continues to increase the size and capabilities of its 
nuclear forces. For example, China has developed a new road mobile 
strategic ICBM, a new multi-warhead version of a silo- based ICBM, and 
has armed its most advanced ballistic missile submarine with new 
Submarine Launched Ballistic Missiles. It has also deployed a nuclear-
capable precision guided intermediate-range ballistic missile capable 
of attacking land and naval targets. Furthermore, it announced 
development of a new nuclear-capable strategic bomber, which will give 
China a nuclear triad.
    North Korea has accelerated its pursuit of nuclear weapons and 
missile capabilities, and made explicit threats to use nuclear weapons 
against the United States and its allies. In the past few years, North 
Korea has dramatically increased its missile flight testing, most 
recently including the testing of intercontinental-range missiles 
possibly capable of reaching the U.S. homeland. It has conducted six 
explosive nuclear tests since 2006, including a test of a significantly 
higher-yield device. It also continues to produce plutonium and highly-
enriched uranium for nuclear weapons production.
    While Iran has agreed to constraints on its nuclear program in the 
Joint Comprehensive Plan of Action (JCPOA), it retains the 
technological capability and much of the capacity necessary to develop 
a nuclear weapon within one year of a decision to do so. Further, 
absent extensive international actions many of the JCPOA's restrictions 
on Iran's nuclear program will end by 2031. Iran's development of 
increasingly long-range ballistic missiles, combined with its 
aggressive strategy and activities to destabilize neighboring 
governments, raise questions about its long-term commitment to 
foregoing a nuclear weapons capability.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY DR. WENSTRUP
    Dr. Wenstrup. How did developments in foreign nuclear weapon 
programs, or other strategic weapon capabilities, factor into the 
Nuclear Posture Review's process and conclusions? Being specific but 
unclassified, what developments in foreign programs or actions of 
foreign nations concern you the most, and how does that factor into the 
NPR's recommendations for U.S. nuclear posture?
    Secretary Mattis. The starting point for the Nuclear Posture Review 
(NPR) was an assessment of today's strategic environment, including an 
examination of foreign nuclear weapon programs. As stated in the 
National Security Strategy, the National Defense Strategy, and the NPR, 
the return of great power competition and the growing importance of 
nuclear weapons in the security strategies of other nuclear powers were 
of significant concern. The NPR's resulting conclusions and 
recommendations ensure that any potential adversary understands the 
unacceptable costs they would incur should they employ a nuclear weapon 
against the United States or our allies or partners.
    Dr. Wenstrup. Leaving aside the poor-descriptor of ``non-
strategic,'' which really just means they aren't captured by any sort 
of arms control agreement, what types of ``non-strategic'' nuclear 
weapons does Russia have? We've heard its something like 11 different 
types, including nuclear torpedoes, nuclear land-mines, nuclear-armed 
air defense missiles, and more. a. How many of these non-strategic 
nuclear weapons does Russia have? The unclassified estimates we've seen 
say several thousand. b. How many types and how many numbers of non-
strategic nuclear weapons does the U.S. have? I understand it's just 
the B61 gravity bomb and only a few hundred of them? c. Is this 10:1 
imbalance significant? Does it impact deterrence or assurance?
    Secretary Mattis. In the unclassified context, the Defense 
Intelligence Agency estimates that Russia possesses approximately two 
thousand non-strategic nuclear weapons (NSNW) and the numbers are 
expanding. Russia has NSNW for close- and short-range ballistic 
missiles (0-500 km range); air-, ground-, and sea-launched cruise 
missiles; anti-submarine weapons including torpedoes, depth bombs and 
missiles; anti-ship missiles; gravity bombs and air-to-surface missiles 
delivered by aircraft; anti-aircraft missiles and anti-ballistic 
missiles. In contrast, the United States has one type of NSNW--the B61 
gravity bomb delivered by dual-capable fighter aircraft.
    The magnitude of the imbalance, when combined with Russian military 
doctrine and practice, is concerning. Although this NSNW imbalance is 
less meaningful for deterring direct attack on the U.S. homeland, it is 
significant for extended deterrence and assurance of allies and 
partners. Russian investment in these weapons and its behavior during 
exercises indicate that it believes it can leverage these weapons to 
coerce the United States and our allies and partners.
    Dr. Wenstrup. How did developments in foreign nuclear weapon 
programs, or other strategic weapon capabilities, factor into the 
Nuclear Posture Review's process and conclusions? Being specific but 
unclassified, what developments in foreign programs or actions of 
foreign nations concern you the most, and how does that factor into the 
NPR's recommendations for U.S. nuclear posture?
    General Selva.  From the outset, the Nuclear Posture Review working 
group worked closely with the Intelligence Community conducting a 
month's long deep dive into the latest assessments of foreign nuclear 
weapon programs. Based on this review, the working group noted the 
rapid deterioration of the threat environment since the 2010 NPR 
despite U.S. efforts to reduce the role and number of nuclear weapons. 
Our potential adversaries did not follow our lead. Rather, Russia, 
China, and North Korea continued their efforts to expand and modernize 
their nuclear forces, and other advanced military capabilities. Of 
particular concern is the combination of Russia's nuclear strategy, 
doctrine, and non-strategic nuclear capabilities. The NPR concluded 
that we need to take steps to reduce Russia's confidence in their 
strategy to initiate limited nuclear use to coerce the U.S. and NATO, 
and recommended two additions to the existing nuclear modernization 
program to do so: (1) a limited number of low-yield SLBM warheads in 
the near-term, and (2) pursuit of a low-yield capable, nuclear-armed 
SLCM.
    Dr. Wenstrup. Leaving aside the poor-descriptor of ``non-
strategic,'' which really just means they aren't captured by any sort 
of arms control agreement, what types of ``non-strategic'' nuclear 
weapons does Russia have? We've heard its something like 11 different 
types, including nuclear torpedoes, nuclear land-mines, nuclear-armed 
air defense missiles, and more. a. How many of these non-strategic 
nuclear weapons does Russia have? The unclassified estimates we've seen 
say several thousand. b. How many types and how many numbers of non-
strategic nuclear weapons does the U.S. have? I understand it's just 
the B61 gravity bomb and only a few hundred of them? c. Is this 10:1 
imbalance significant? Does it impact deterrence or assurance?
    General Selva.  [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. KNIGHT
    Mr. Knight. The Nuclear Posture Review makes clear that our nuclear 
forces need to both deter potential adversaries and assure our allies. 
Were our allies consulted as the NPR was being considered and drafted? 
What did they say or recommend? When the Obama administration 
eliminated the sea-launched cruise missile in the 2010 NPR, Japan in 
particular was concerned. Has Japan or any of our other allies 
expressed support from bringing this cruise missile capability back? 
How does the ability to signal strategic intent with our nuclear 
bombers, including the B-2 today and the B-21 in the near-future, 
contribute to assurance of allies? In particular, how are our allies 
reacting to the proposal to continue the Obama administration's program 
of record and add two supplemental capabilities?
    Secretary Mattis. Throughout the Nuclear Posture Review, we 
consulted extensively with allies and partners. They were unanimous in 
the view that the security environment has changed for the worse since 
2010; offered a range of opinions on the environment and the continued 
need for nuclear deterrence; and appreciated our efforts to consult 
with them. Our East Asian allies in particular appreciated the 
reaffirmation of U.S. extended deterrence commitments. In Europe, 
reactions were positive, particularly our moves to strengthen 
deterrence, reaffirm our declaratory policy, and further the goals of 
the Treaty on Non-Proliferation of Nuclear Weapons. A number of 
European allies emphasized the importance of balancing deterrence with 
arms control and non-proliferation initiatives. Reactions to 
continuation of the U.S. nuclear modernization program were generally 
positive. No European allies objected to the inclusion of the 
supplemental capabilities. Strategic nuclear bombers, as well as dual-
capable aircraft, both of which can be forward-deployed, provide a 
visible display of U.S. capabilities and resolve, providing effective 
signaling for deterrence and assurance, especially in times of tension. 
Many viewed these supplemental capabilities as an appropriate counter-
balance to Russian, Chinese and North Korean developments, while some 
did express reservations over possible Russian and Chinese reactions.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. DesJARLAIS
    Mr. DesJarlais. What does the NPR recommend to finally get on top 
of the massive and complex challenge of NC3 modernization? What steps 
are being proposed to get after NNSA's $4 billion backlog of 
infrastructure problems and deferred maintenance? How will we ensure we 
take care of the unsung heroes of national defense in DOD and NNSA that 
operate, support, and provide our nuclear deterrent?
    Secretary Mattis. The Nuclear Command, Control and Communication 
(NC3) system is subject to challenges from both aging system components 
and new threats, in particular space and cyber-space, adversary 
strategies of limited nuclear escalation, and a diffusion of authority 
and responsibility. The Administration is pursuing a series of steps to 
strengthen NC3, including: 1) improving protection against space-based 
and cyber threats; 2) enhancing integrated tactical warning and attack 
assessment; 3) improving command post and communication links; 4) 
advancing decision support technology; and 5) integrating planning and 
operations. The Nuclear Posture Review (NPR) directs the Chairman of 
the Joint Chiefs of Staff to deliver to me by 1 May a plan to reform 
NC3 governance.
    There is no margin for further delay in recapitalizing the physical 
infrastructure needed to produce strategic materials and components for 
U.S. nuclear weapons. Just as our nuclear forces are an affordable 
priority, so is a resilient and effective nuclear weapons 
infrastructure. The NPR lays out several specific initiatives that 
National Nuclear Security Agency will pursue and fund in its budget 
requests, and implementation of these efforts is ongoing. The personnel 
who maintain our nuclear deterrent are true professionals; I am 
committed to ensuring they have the tools needed to execute their 
mission.
    Mr. DesJarlais. What would be the consequences, risks, or benefits 
of delaying or cancelling certain modernization programs--such as the 
GBSD land-based missile, the B-21 bomber, the long-range standoff 
(LRSO) cruise missile, or the COLUMBIA-class submarine? How firm is the 
need for the current schedules for these programs--or is there room for 
slipping their schedules?
    General Selva.  Any delay or cancellation of these programs would 
severely limit the capability and capacity of the Joint Force to meet 
the objectives of the Nuclear Posture Review. Delays would require 
service life extensions to legacy systems, and in cases such as the 
OHIO class submarine, the service life cannot be extended. If any of 
these programs are delayed or cancelled, our nuclear deterrence would 
be severely degraded.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. ABRAHAM
    Dr. Abraham. Secretary Mattis, your Nuclear Posture Review (NPR) 
mentions the importance of refurbishing the infrastructure that 
supports our nuclear deterrent, both at DOD bases and across the NNSA 
enterprise. Several of the Air Force facilities that desperately need 
recapitalization are the Weapons Storage Facility at our strategic 
bomber bases, including Barksdale Air Force base. When you say nuclear 
deterrence is our number one priority mission and we need to 
recapitalize our force, do you include this type of infrastructure in 
that prioritization?
    Secretary Mattis. Yes. The Nuclear Posture Review commits the 
United States to a safe, secure and effective nuclear posture through a 
program to modernize and recapitalize the Triad and supporting 
infrastructure, including National Nuclear Security Administration 
infrastructure.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GALLAGHER
    Mr. Gallagher. In recent years, there have been press reports of a 
number of joint ventures between U.S. companies and Chinese companies 
on Chinese soil that involve the transfer of U.S. technology to the 
detriment of the warfighter. These transactions appear to be designed 
to both evade CFIUS and game the export control system. What is your 
view on these types of transactions?
    Secretary Mattis. I am concerned about China's attempts to increase 
its military capabilities by gaining access to sensitive U.S. 
technologies and know how, both directly within the United States and 
through our allies and partners. China uses a range of acquisition 
methods, both legal and illegal, in a comprehensive approach that tests 
the gaps and seams in U.S. protection measures. For example, when a 
Chinese company failed in successive attempts to secure export licenses 
to access a U.S. company's equipment and technology, the Chinese sought 
to circumvent U.S. exports controls by instead attempting to acquire 
the company itself.
    Furthermore, increasingly globalized science and technology means 
that attempts to obtain U.S. technologies do not stop at U.S. borders. 
A Chinese entity recently made an attempt to acquire a German company 
with U.S. subsidiaries developing cutting-edge semiconductor 
technologies. The Committee on Foreign Investment in the United States 
(CFIUS) conducted an investigation and ultimately the parties abandoned 
the acquisition and immediately entered into a joint venture, a 
structure that is currently outside CFIUS's jurisdiction.
    We must ensure that both the CFIUS review and the export control 
processes effectively address the complexities of today's globalized 
and dual-use science and technology environment. The Foreign Investment 
Risk Review Modernization Act of 2017 (FIRRMA) legislation proposed by 
Senator Cornyn would enhance the available processes to protect our 
military technological advantage and national security interests by 
expanding the scope of covered transactions, including to joint 
ventures. Our export control licensing processes and authorities should 
be similarly enhanced to complement any change to the CFIUS process, 
including to protect emerging technologies, in order to ensure that the 
U.S. Government response is sufficiently effective and comprehensive in 
addressing this multi-vectored threat in a world characterized by 
rapidly evolving science and technology.
    We must take a comprehensive whole-of-government approach to 
securing our sensitive technologies, with a range of robust and agile 
authorities employed in concert to prevent transfers to China and other 
countries that use similar methods to exploit our technology. Both the 
methods of exploitation and the potential national security 
implications are many and varied. The approach to securing American 
technology must be similarly comprehensive.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BACON
    Mr. Bacon. Nuclear Command, Control & Communications (NC3). A 
recent review by the House Armed Services Committee staff shows at 
least 35 different organizations claim to have responsibility for NC3: 
9 separate organizations establish policy; 18 identify threats and 
gaps; 12 establish requirements; 9 advocate capabilities; 20 
organizations acquire and sustain systems; 15 organizations plan and 
conduct operations. Most concerning, it appears that 31 organizations 
provide oversight.
    Questions: 1. Who is in charge of the NC3 enterprise in the 
Department of Defense?; 2. Do you believe organizational reforms are 
necessary to ensure clear responsibility and accountability for the 
readiness and effectiveness of our NC3 enterprise? If yes, what changes 
would you recommend?; 3. What are your priorities for NC3 
modernization?; 4. Do you believe it is prudent to revisit our airborne 
NC3 posture? If yes, what would the Department require to resume a 
sustained NC3 airborne alert?
    Secretary Mattis. The Nuclear Posture Review directs the Chairman 
of the Joint Chiefs of Staff to deliver a plan to me no later than May 
1, 2018 to reform Nuclear Command, Control and Communication (NC3) 
governance to ensure its modernization and effective functioning 
against current and future environments. In addition to NC3 governance 
reform, the Administration will pursue a series of initiatives to 
strengthen NC3, including: 1) strengthening protection against space-
based and cyber threats; 2) enhancing integrated tactical warning and 
attack assessment; 3) improving command post and communication links; 
4) advancing decision support technology; and 5) integrating planning 
and operations. Airborne NC3 capabilities are key to the overall 
survivability of the NC3 system; their modernization and sustainment 
are well-warranted.
    Mr. Bacon. Nuclear Command, Control & Communications (NC3). A 
recent review by the House Armed Services Committee staff shows at 
least 35 different organizations claim to have responsibility for NC3: 
9 separate organizations establish policy; 18 identify threats and 
gaps; 12 establish requirements; 9 advocate capabilities; 20 
organizations acquire and sustain systems; 15 organizations plan and 
conduct operations. Most concerning, it appears that 31 organizations 
provide oversight.
    Questions: 1. Who is in charge of the NC3 enterprise in the 
Department of Defense?; 2. Do you believe organizational reforms are 
necessary to ensure clear responsibility and accountability for the 
readiness and effectiveness of our NC3 enterprise? If yes, what changes 
would you recommend?; 3. What are your priorities for NC3 
modernization?; 4. Do you believe it is prudent to revisit our airborne 
NC3 posture? If yes, what would the Department require to resume a 
sustained NC3 airborne alert?
    General Selva. 1. Who is in charge of the NC3 enterprise in the 
Department of Defense? A: In accordance with Presidential Policy 
Directive 35, the Secretary of Defense is in charge of the Nuclear 
Command and Control Communications (NC3) enterprise for the DOD. The 
Council on Oversight on the National Leadership Command, Control, and 
Communications System (CONLC3S) is responsible for oversight of the 
command, control, and communications system for the national leadership 
of the United States and provides oversight of the NC3 enterprise.
    2. Do you believe organizational reforms are necessary to ensure 
clear responsibility and accountability for the readiness and 
effectiveness of our NC3 enterprise? A: The 2017 Nuclear Posture Review 
(NPR) tasked the Chairman of the Joint Chiefs of Staff to provide a 
plan to the Secretary of Defense for improving and reforming governance 
of the overall NC3 System no later than 1 May 2018.
    2a. If yes, what changes would you recommend? A: In response to the 
NPR task, the Joint Staff is leading an effort to identify what, if 
any, changes to existing roles, responsibilities, and authorities would 
be required to improve and reform governance of the overall NC3 system.
    3. What are your priorities for NC3 modernization? A: The NC3 
enterprise is a complex system of systems, each part of which 
contributes to its overall effectiveness. The Joint Staff is leading an 
effort to ensure the Department is able to make risk-informed, 
prioritized investment decisions within the NC3 enterprise.
    4. Do you believe it is prudent to revisit our airborne NC3 
posture? A: The Department continually assesses the posture of the 
entire U.S. nuclear enterprise within the context of evolving threats 
and emerging capabilities. As part of that effort, the Department is 
exploring revised concepts of operation that include sustained NC3 
airborne alert, but no decisions have been made to date.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. HICE
    Mr. Hice. The Nuclear Posture Review (NPR) recommends deploying a 
low-yield submarine-launched ballistic missile (SLBM) on our submarines 
in order to better deter Russia. Some have argued that deploying such a 
low-yield warhead alongside our higher-yield SLBMs will lead to 
instability in a crisis, an adversary mistaking a low-yield for a high-
yield warhead, or even that the submarine would be vulnerable to 
counterattack if it only launches a single low-yield missile. Do you 
put any credence into those arguments?
    Secretary Mattis. No. Deploying a low-yield variant of the 
submarine-launched ballistic missile (SLBM) will increase stability, 
particularly in crisis, by demonstrating to an adversary that the 
United States has the ability to respond to any level of nuclear use. 
This reduces an adversary's incentive to use nuclear weapons in the 
first place. Adversary discrimination is not a critical concern. There 
is little to suggest that an adversary would view a single ballistic 
missile launch--regardless of the weapon's yield--as an all-out attack 
leading to a response in kind. In addition, the NPR examined the risks 
of launching a single or small number of low-yield SLBMs from a single 
nuclear-powered submarine and determined the risks to the ship are 
minimal.
    Mr. Hice. Do you believe the relationship between DOD and NNSA is 
working? Are NNSA and DOE appropriately focused on their number one 
mission of delivering nuclear weapons to the military? NNSA's 
contracting structure with its labs and plants is very focused on 
operational minutiae and cost savings, and mission deliverables to the 
military often seem like an afterthought.
    Secretary Mattis. The Department of Defense (DOD) and Department of 
Energy's National Nuclear Security Administration (NNSA) are both 
committed to modernizing and recapitalizing all aspects of the U.S. 
deterrent. DOD looks forward to working with the new NNSA 
Administrator, Ms. Gordon-Hagerty, and endorses her recent remarks 
reinforcing that DOD is NNSA's primary customer.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LARSEN
    Mr. Larsen. Is reducing the role of nuclear weapons in conflict a 
goal of this administration? If so, what new actions will be taken to 
reduce the role of nuclear weapons?
    Secretary Mattis. As stated in the Nuclear Posture Review, the 
Administration has made clear its long-term goal of eliminating nuclear 
weapons coupled with the requirement that the United States have 
modern, flexible and resilient nuclear capabilities until such a time 
as nuclear weapons can prudently be eliminated from the world.
    Mr. Larsen. The NPR makes clear that a portion of the ICBM forces 
are in an alert status that would allow prompt launch in order to 
prevent their destruction in a ``surprise first strike.'' Yet the NPR 
criticizes the use of the term ``hair-trigger alert.'' Would ``launch 
on alert'' be a correct description of the alert status of these 
weapons, and what is the decision making process and timeline for their 
launch?
    Secretary Mattis. ``Launch on alert'' is not a correct description 
of the alert status of the Intercontinental Ballistic Missile (ICBM) 
force. The United States maintains a portion of its nuclear forces on 
alert day-to-day, and retains the option of launching those forces 
promptly. This posture maximizes decision time and preserves the range 
of U.S. response options. Forces on day-to-day alert are subject to 
multiple layers of control, ensuring clear civilian and Presidential 
decision-making. Over more than half a century, the U.S. has 
established a series of measures and protocols to ensure that ICBMs are 
safe, secure, and under constant control. Any U.S. decision to employ 
nuclear weapons would follow a deliberative process.
    Mr. Larsen. Does the ability to deliver a proportional nuclear 
response enhance deterrence? Should proportionality be directly related 
to the explosive yield of a nuclear weapon? How long would it take the 
United States to ascertain the yield of a nuclear weapon used against 
the U.S. or an ally? How long would it take an adversary to make a 
similar calculation regarding a weapon used against its territory?
    Secretary Mattis. Effective nuclear deterrence is about ensuring 
potential adversaries do not miscalculate regarding the consequences of 
any nuclear employment. As described in the Nuclear Posture Review, the 
United States will apply a tailored approach supported by flexible 
capabilities to effectively deter across a spectrum of adversaries, 
threats, and contexts. In support of this, the United States will now 
pursue select low-yield supplements that will enhance deterrence by 
denying potential adversaries any mistaken confidence that limited 
nuclear employment can provide a useful advantage over the United 
States and its allies.
    The U.S. nuclear detection system is able to promptly determine the 
yield of a nuclear detonation. Depending on the adversary, it could 
take a similar timeframe to make a similar determination.
    Mr. Larsen. How would deploying sea-launched nuclear cruise 
missiles change operations, security, personnel and training 
requirements for the Navy? What are the costs expected to be and how 
would this requirement impact existing Navy missions and operations?
    General Selva.  We do not yet know how nuclear-armed SLCM 
deployment will affect Navy operations, security, personnel, and 
training requirements, as we have not yet developed the concept of 
operations for this system, nor have we identified a specific technical 
solution. The Navy will evaluate any required changes to operations, 
security, personnel and training requirements as it implements the 
Nuclear Posture Review direction for pursuing a sea launched cruise 
missile (SLCM) capability. This effort will include conducting an 
Analysis of Alternatives which will refine the costs associated with 
any proposed SLCM options.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. The B83 is the last megaton-range weapon in the U.S. 
nuclear stockpile, with a maximum yield about 75 times larger than the 
bomb used against Hiroshima. While the B83 was set to be retired, the 
Nuclear Posture Review sustains the weapon indefinitely. Why did the 
Administration postpone the B83's retirement? What deterrence 
requirements are met by retaining this weapon?
    Secretary Mattis. The 2018 Nuclear Posture Review reiterates the 
prior Administration's commitment to retain the B83-1 in the stockpile 
until there is sufficient confidence in the B61-12 gravity bomb. Given 
the changed threat environment, deterrence requirements to hold a 
variety of protected targets at risk, and the unique capabilities of 
the B83-1 bomb to fulfill those requirements, the Administration 
decided to postpone B83-1 retirement until a suitable replacement is 
identified.
    Ms. Speier. The Nuclear Posture Review indicates that the United 
States could return to explosive nuclear testing if ``geopolitical 
challenges'' occur. Please cite examples of geopolitical challenges 
that could precipitate a return to explosive nuclear testing.
    Secretary Mattis. The Nuclear Posture Review (NPR) reiterates U.S. 
policy to continue observing the nuclear test moratorium that began in 
1992. The NPR recognizes, however, that global threat conditions have 
worsened markedly since 2010, and that the United States must remain 
ready to resume nuclear testing if necessary to meet severe 
technological or geopolitical challenges. Examples of geopolitical 
challenges could include the emergence of new adversaries, expansion of 
adversary nuclear forces, changes in adversary strategy and doctrine, 
new alignments among adversaries, and the further proliferation of 
nuclear weapons.
    Ms. Speier. The B83 is the last megaton-range weapon in the U.S. 
nuclear stockpile, with a maximum yield about 75 times larger than the 
bomb used against Hiroshima. While the B83 was set to be retired, the 
Nuclear Posture Review sustains the weapon indefinitely. Why did the 
Administration postpone the B83's retirement? What deterrence 
requirements are met by retaining this weapon?
    General Selva.  [The information referred to is classified and 
retained in the committee files.]
    Ms. Speier. The Nuclear Posture Review indicates that the United 
States could return to explosive nuclear testing if ``geopolitical 
challenges'' occur. Please cite examples of geopolitical challenges 
that could precipitate a return to explosive nuclear testing.
    General Selva.  The Nuclear Posture Review (NPR) explicitly 
identified the capacity to hedge against an uncertain future security 
environment as a role of nuclear weapons in U.S. national security 
strategy. This role is a recognition that the future security 
environment is unknowable, and that it can change rapidly, as it did 
since the 2010 NPR. A geopolitical challenge could emerge that would 
require the United States to develop nuclear weapons with new military 
capabilities that could only be achieved with confidence through 
explosive testing. Due the uncertainty noted above, I cannot tell you 
today what that challenge might be, but it would be prudent to be 
prepared to address such a challenge.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GALLEGO
    Mr. Gallego. The Nuclear Posture Review mentions that the United 
States would consider using nuclear weapons in response to non-nuclear 
attacks that have strategic effects. Can you provide more detail under 
what scenarios the United States would consider use of nuclear weapons 
in a scenario that has stayed non-nuclear to that point?
    Secretary Mattis. The United States will only consider the use of 
nuclear weapons in extreme circumstances to defend the vital interests 
of the United Sates, its allies, and partners. The Nuclear Posture 
Review provides examples of ``extreme circumstances,'' which could 
include significant non-nuclear strategic attacks. Significant non-
nuclear strategic attacks include, but are not limited to, attacks on 
the U.S., allied, or partner civilian population or infrastructure, and 
attacks on U.S. or allied nuclear forces, their command and control, or 
warning and attack assessment capabilities. That said, there is nothing 
automatic about a United States nuclear response. Our response to 
aggression will be with a means and at a time of our choosing.
    Mr. Gallego. In which arenas and against which nuclear-armed foes 
are we expecting to possibly use nuclear weapons to deter or turn back 
non-nuclear attacks?
    Secretary Mattis. The United States will not use or threaten to use 
nuclear weapons against non-nuclear weapons states that are party to 
the Treaty on Non-Proliferation of Nuclear Weapons and in compliance 
with their nuclear non-proliferation obligations under the Treaty. The 
United States is pursuing a tailored deterrence strategy, supported by 
flexible capabilities designed to deter a range of adversaries across a 
diverse set of potential contingencies. The Nuclear Posture Review 
describes tailored strategies for Russia, China, North Korea, and Iran.
    Mr. Gallego. Under a Great Power Competition model, our allies and 
strategic partners may have to shift their priorities and actions as 
well. Competition with states can be expensive, especially for our 
smaller allies and partners in Europe and Asia, many of which have 
invested heavily in boutique counterinsurgency capabilities--often at 
our request--since 2001. How should allied and partner states--many of 
which cannot afford to make wholesale, rapid changes to their capital 
acquisition schedules and force size--fit into this strategy? Can we 
expect and rely on them to both fight with us in Coalitions against 
terrorists and be a bulwark against a large, nuclear-armed state?
    Secretary Mattis. The National Defense Strategy directs the 
Department of Defense to strengthen and evolve our alliances and 
partnerships to meet shared challenges. We expect allies and partners 
to contribute their fair share to security. Each ally and partner is 
unique. The Department of Defense is consulting with each ally and 
partner on how it can contribute to addressing shared challenges. Some 
allies and partners are postured to contribute to fighting terrorists 
and deterring threats from states. Others will have capabilities that 
incline them more toward one of those objectives. The overall 
constellation of allies and partners will provide the potential to 
build coalitions to meet a range of future challenges.
    Mr. Gallego. Great power competition can, of course, lead to great 
power war, which holds the potential for much higher servicemember- and 
civilian casualties than the wars we have fought since Vietnam. Many in 
Congress know and understand this, especially on the Armed Services 
Committees, but Americans in general may not. What is the Department 
and wider Administration doing to ensure that the the American People 
are ready, willing, and able to pay the potentially massive human costs 
of modern state-on-state conflict?
    Secretary Mattis. The greatest deterrence to war is for the enemy 
to be overmatched in all aspects and forms of warfare. My goal is to 
build such a lethal military that it will enhance our diplomatic 
persuasiveness. And we build such a Force of deterrence by successfully 
implementing and resourcing the Department's strategy. Directly 
inspired by the President's National Security Strategy, the Department 
developed the National Defense Strategy (NDS) that clearly articulates 
a strategic approach to deter aggression in critical theaters and, 
should deterrence fail, prevail in protracted war with any great power 
adversary. This approach encompasses three lines of effort: (1) build a 
more lethal force; (2) strengthen alliances and attract new partners; 
and (3) reform the Department for greater performance and 
affordability. Proper resourcing of the strategy not only calls for 
stable and predictable budgets, but also prioritizing mission-critical 
operations and programs that most directly contribute to the success of 
the strategy.
    As part of building this lethal force, we are also prioritizing 
medical and family readiness programs that allow our Service members to 
be fully deployable and provide support for their loved ones, whether 
the Service members are at home base or abroad. With this in mind, the 
Department aims to make the best possible use of its resources to give 
the strategy the best possible chance to succeed in both peacetime and 
in wartime.
    Mr. Gallego. Under a Great Power Competition model, our allies and 
strategic partners may have to shift their priorities and actions as 
well. Competition with states can be expensive, especially for our 
smaller allies and partners in Europe and Asia, many of which have 
invested heavily in boutique counterinsurgency capabilities--often at 
our request--since 2001. How should allied and partner states--many of 
which cannot afford to make wholesale, rapid changes to their capital 
acquisition schedules and force size--fit into this strategy? Can we 
expect and rely on them to both fight with us in Coalitions against 
terrorists and be a bulwark against a large, nuclear-armed state?
    General Selva.  Allies and partners have made significant 
investments in counterinsurgency capabilities, but many have also 
advanced their capability and capacity to support major combat 
operations. We must continue to assure allies and partners while 
maintaining the ability to deter potential adversaries. We see that 
some potential adversaries continue to operate below the threshold that 
would drive a traditional military response. In this area, 
counterinsurgency capabilities will likely be the best response. In 
contested areas of the competition space, counterinsurgency is a viable 
mission that could provide a competitive advantage in an allied or 
coalition undertaking.
    Mr. Gallego. Great power competition can, of course, lead to great 
power war, which holds the potential for much higher servicemember- and 
civilian casualties than the wars we have fought since Vietnam. Many in 
Congress know and understand this, especially on the Armed Services 
Committees, but Americans in general may not. What is the Department 
doing to ensure that the Force and military families are ready, 
willing, and able to pay the potentially massive human costs of modern 
state-on-state conflict?
    General Selva. The department does not prepare, per se, our Service 
Members and their families to be ready, willing, and able to pay 
massive human costs of state-on-state conflict. We prepare our Service 
Members and their families to mobilize, deploy, fight, WIN, redeploy, 
and reintegrate. That being said,--DOD and Joint Force senior leaders 
routinely engage with external audiences, including the press, as well 
as with military members and their families in an effort to keep them 
informed about today's strategic security environment. Those 
discussions often include frank conversations about how a high-end war 
against a great-power adversary would result in catastrophic impacts to 
all involved. As Secretary Mattis has consistently maintained, 
diplomacy remains the priority effort in the current environment of 
great power competition, but the Joint Force is working hard to restore 
readiness to ensure the military is prepared to respond to any 
contingency.--Services have Service Member and Family Readiness 
programs. Current resiliency programs and Family Readiness best 
practices prove to be effective, and will prove useful should there be 
an high-end conflict.--The department is also prepared with contingency 
plan for recovery, removal and next-of-kin notification for mass 
casualties.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MS. ROSEN
    Ms. Rosen. If we are indeed abiding by the 1992 nuclear test 
moratorium and are not conducting explosive nuclear testing, why won't 
the Administration push for ratification of the Comprehensive Test Ban 
Treaty?
    Secretary Mattis. The United States will not seek Senate 
ratification of the Comprehensive Nuclear Test Ban Treaty, but will 
continue to observe the nuclear test moratorium that began in 1992. 
This approach is needed because America confronts an international 
security situation that is more complex and demanding than any since 
the end of the Cold War and must remain ready to resume nuclear testing 
if necessary to meet severe technological or geopolitical challenges 
that may emerge.
    Ms. Rosen. In what ways could the expanded scenarios in the Nuclear 
Posture Review allowing for the use of nuclear weapons against NON-
nuclear threats--including cyber threats--increase the likelihood of a 
nuclear exchange between the United States and North Korea?
    Secretary Mattis. The United States will only consider the use of 
nuclear weapons in extreme circumstances to defend the vital interests 
of the United States, its allies, and partners. The Nuclear Posture 
Review (NPR) provides examples of ``extreme circumstances,'' which 
could include significant non-nuclear strategic attacks. Significant 
non-nuclear strategic attacks include, but are not limited to, attacks 
on the U.S., allied, or partner civilian population or infrastructure, 
and attacks on U.S. or allied nuclear forces, their command and 
control, or warning and attack assessment capabilities. Although the 
NPR discusses the need for a tailored strategy vis-a-vis North Korea, 
this strategy does not lower the threshold for consideration of U.S. 
nuclear use.
    Ms. Rosen. The Nuclear Posture Review states that ``geopolitical 
challenges'' could lead to a possible return to explosive nuclear 
testing. What challenges might necessitate a return to explosive 
testing, either below ground or above ground?
    Secretary Mattis. The Nuclear Posture Review (NPR) reiterates U.S. 
policy to continue observing the nuclear test moratorium that began in 
1992. The NPR recognizes, however, that global threat conditions have 
worsened markedly since 2010, and that the United States must remain 
ready to resume nuclear testing if necessary to meet severe 
technological or geopolitical challenges. Examples of geopolitical 
challenges could include the emergence of new adversaries, expansion of 
adversary nuclear forces, changes in adversary strategy and doctrine, 
new alignments among adversaries, and the further proliferation of 
nuclear weapons. The NPR directs the National Nuclear Security 
Administration to maintain the capability to resume underground nuclear 
explosive testing if called upon to do so. It contains no requirement 
for an above-ground nuclear explosive test capability.

                                  [all]


</pre></body></html>
